<html>
<title> - REVIEW OF THE FISCAL YEAR 2012 BUDGET AND PRIORITIES OF THE ENVIRONMENTAL PROTECTION AGENCY: IMPACTS ON JOBS, LIBERTY, AND THE ECONOMY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     REVIEW OF THE FISCAL YEAR 2012
                      BUDGET AND PRIORITIES OF THE
                    ENVIRONMENTAL PROTECTION AGENCY:
               IMPACTS ON JOBS, LIBERTY, AND THE ECONOMY

=======================================================================

                                (112-12)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-482                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
TOM REED, New York                   EDDIE BERNICE JOHNSON, Texas
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
JAIME HERRERA BEUTLER, Washington,   JASON ALTMIRE, Pennsylvania
Vice Chair                           STEVE COHEN, Tennessee
CHIP CRAVAACK, Minnesota             LAURA RICHARDSON, California
LARRY BUCSHON, Indiana               MAZIE K. HIRONO, Hawaii
JEFFREY M. LANDRY, Louisiana         NICK J. RAHALL II, West Virginia
JEFF DENHAM, California                (Ex Officio)
JAMES LANKFORD, Oklahoma
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Stanislaus, Mathy, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, United States Environmental Protection 
  Agency.........................................................    16
Stoner, Nancy, Acting Assistant Administrator, Office of Water, 
  United States Environmental Protection Agency..................    16

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Stanislaus, Mathy................................................    48
Stoner, Nancy....................................................    56

                       SUBMISSION FOR THE RECORD

Bishop, Hon. Timothy H., a Representative in Congress from the 
  State of New York, request to include chart entitled, ``H.R. 1: 
  State-by-State Cuts to Clean Water State Revolving Fund 
  Investments''..................................................     5

[GRAPHIC] [TIFF OMITTED] T5482.001

[GRAPHIC] [TIFF OMITTED] T5482.002

[GRAPHIC] [TIFF OMITTED] T5482.003

[GRAPHIC] [TIFF OMITTED] T5482.004

[GRAPHIC] [TIFF OMITTED] T5482.005

[GRAPHIC] [TIFF OMITTED] T5482.006



                     REVIEW OF THE FISCAL YEAR 2012
                      BUDGET AND PRIORITIES OF THE
                    ENVIRONMENTAL PROTECTION AGENCY:
                       IMPACTS ON JOBS, LIBERTY,
                            AND THE ECONOMY

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The committee will come to order. This is the 
subcommittee hearing of Water Resources and Environment of the 
Transportation and Infrastructure Committee. Today we are 
having a hearing, ``Review of the Fiscal Year 2012 Budget and 
Priorities of the Environmental Protection Agency: Impacts on 
Jobs, Liberty, and the Economy.''
    And before we get started, I would like to just take a 
minute or two and let the Members kind of introduce themselves. 
And I guess we can start down there with the Representative 
from Oklahoma.
    Mr. Lankford. I'll do that. James Lankford, representative 
from the central Oklahoma, Oklahoma five, it's Oklahoma City.
    Mr. Landry. Jeff Landry, Louisiana three, that's the 
coastal area of Louisiana. A lot of water.
    Ms. Herrera Beutler. Jaime Herrera Beutler, Washington 
State's Third Congressional District. We have the Columbia 
River, and a lot of water, as well.
    Dr. Harris. Andy Harris, Maryland's First District, the 
Chesapeake Bay.
    Mr. Miller of California. Well, this is a first, Chairman. 
Gary Miller from California's 42nd District.
    Mr. Gibbs. Thank you. Let me introduce our ranking member, 
Representative Bishop.
    Mr. Bishop. Tim Bishop, New York one, eastern Long Island, 
also lots of water.
    Mr. Rahall. Representative Nick Rahall from West Virginia, 
ranking member of the full committee.
    Mr. Carnahan. Representative Russ Carnahan from the St. 
Louis area, along the Mississippi River.
    Ms. Hirono. Mazie Hirono from Hawaii, and we are totally 
surrounded by water.
    [Laughter.]
    Mr. Gibbs. Again, I would like to welcome everybody and our 
two guests from the EPA. But first, I will start off with an 
opening statement.
    I have a number of concerns about the Environmental 
Protection Agency's ongoing activities and plans in fiscal year 
2012. These are issues I want the subcommittee to explore 
during this Congress, and hold hearings on some of them, when I 
think it would be helpful to Members.
    First and foremost, I am concerned about the proliferation 
of so-called guidance coming out of EPA, in an attempt to 
short-circuit the process for changing Agency policy without 
following a proper transparent rulemaking process. Much of this 
so-called guidance amounts to being de facto rules instead of 
advisory guidelines.
    In addition, I note the exponential increase in regulations 
coming out of the EPA in recent months, or planned for the near 
future, related to the subcommittee's jurisdiction. Many of 
these regulatory efforts are based on questionable science, at 
best, and stand to substantially increase the regulatory burden 
for States, local governments, and businesses, especially small 
businesses. EPA is making a mockery of the administration's 
regulatory review initiative to reduce regulatory burdens in 
our country.
    These guidance and rulemaking efforts of concern include, 
but are not limited to: guidance to expand the scope of 
jurisdiction of the Clean Water Act; guidance on permitting of 
sole surface coal mining; EPA's recent veto of an existing 
permit for an ongoing mining operation; expanded regulation of 
storm water, including post-construction site run-off; new 
development and redevelopment and existing development through 
retrofitting; numerical water quality standards for the State 
of Florida; numerical water quality standards for the entire 
Mississippi River basin, including water intake structures.
    I am concerned that more regulations means more unfunded 
mandates to burden our cities and towns at a time when they 
need relief from these types of injustices.
    I am concerned that the EPA seems to have a fondness for 
guidance, as opposed to regulations, and thus, have found a 
backdoor way to get de facto rules in place without the 
transparency that is built into the formal rulemaking process 
of the Administrative Procedure Act.
    I am concerned that the EPA has usurped State authority by 
effectively taking over the implementation plans for the 
Chesapeake Bay States, and has expressed its intention to do 
the same elsewhere.
    I am concerned that the requirement for numerical standards 
for the State of Florida is just the beginning, and other 
States will soon have costly, job-killing requirements placed 
on them, as well.
    I am concerned that while the President is imposing more 
regulatory burdens on communities, businesses, and citizens, 
he, at the same time, is calling for the reduction in spending 
in many for many other programs that assist communities in 
their efforts to come to compliance with regulations. While the 
President is willing to increase enforcement spending, he is 
cutting spending for compliance assistance efforts. So, what I 
have here is a Federal Agency that will add to the burden of 
rules and regulations, reduced programs to help folks come into 
compliance, but would also put more boots on the ground to 
track down those who cannot come into compliance with little or 
no benefit to the environment.
    This is a government at its worst, an Agency cutting 
facilitators but increasing regulators. I want clean water as 
much as anyone, but I recognize that we have to have a strong 
economy so we can afford to invest in new programs that new 
regulations require. Today is not the day to put more burdens 
on the American people. We need to make significant progress in 
creating long-term jobs and a stronger economy before we can 
tolerate more expensive regulations.
    At this time, I will turn it over to Ranking Member 
Representative Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing on the President's fiscal year 
2012 budget request for the Environmental Protection Agency.
    Today marks the first of two planned hearings to review the 
budgets and priorities of the agencies under the jurisdiction 
of the Subcommittee on Water Resources and the Environment. 
These hearings provide a valuable opportunity for our new and 
returning Members to learn the breadth of this subcommittee's 
jurisdiction over several executive branch departments and 
agencies. And I look forward to working with the chairman to 
hear firsthand from the other agencies within our jurisdiction 
during these planned hearings.
    Mr. Chairman, all of us recognize the gravity of the 
financial situation facing this Nation and, indeed, the world 
today. This Nation is just starting to emerge from the worst 
economic recession since the Great Depression. However, with 
the national unemployment rate still standing at 9 percent, and 
the unemployment rate for the construction sector at 22.5 
percent, we are far from completing our work.
    Thanks, in part, to the foresight of this administration 
and the courageous actions of the previous Congress, our Nation 
was able to lessen the potential impact of the last recession 
on hardworking Americans, and pull our economy back from the 
brink. Conservative estimates confirm that, but for the 
infusion of additional infrastructure investment advocated by 
this committee for inclusion in the Recovery Act, job losses in 
the construction sector would have been far worse.
    As this committee has shown time and time again, investment 
in our Nation's infrastructure does have a significant impact, 
and positive impact on the economy, and it does create jobs. 
This is why I am so concerned that the new Republic Majority 
has taken aggressive steps to cut funding from many Federal 
programs with a proven record of providing economic benefits to 
the Nation, and for creating jobs.
    Unfortunately, Republicans have responded to this Nation's 
economic situation with an axe, when a scalpel would seem more 
appropriate. Just 2 weeks ago, the Majority pushed through a 
stop-gap spending bill that decimated several critical 
infrastructure investment programs, and threatens increased job 
loss and economic uncertainty at an extremely delicate time on 
the Nation's economy.
    Today's budget hearing title references impacts to jobs and 
the economy. According to two separate reports from Wall Street 
analysts, the Republican Majority's proposal to cut $61 billion 
from the current fiscal year budget would decimate broader 
efforts at job creation throughout the Nation, and would be 
taking an unnecessary chance with the ongoing economic 
recovery.
    Specifically, these reports highlight how, if enacted as 
passed by the House, the Republican proposal would result in 
400,000 fewer jobs created by the end of fiscal year 2011, 
700,000 fewer jobs by the end of 2012. In addition, news 
analysis of the report suggests that the proposal would reduce 
the growth in the gross domestic product by up to 2 percent 
points this year, essentially cutting in half the Nation's 
projected economic growth for 2011.
    Christine Todd Whitman, a Republican EPA administrator 
under President George W. Bush, estimated that the needs of our 
Nation's aging water infrastructure topped $660 billion. Yet, 
with the budget of the Environmental Protection Agency, within 
that budget, the most notable reduction is the $1.4 billion 
proposed cut to the Clean Water State Revolving Fund, the 
primary source of Federal investment for our Nation's 
wastewater infrastructure. Unfortunately, this proposal marks a 
clear reversal of recent bipartisan efforts to increase 
investment in our Nation's failing and outdated wastewater 
infrastructure, and on efforts to improve our Nation's water 
quality.
    In terms of job losses, this cut alone would eliminate over 
39,000 direct construction jobs throughout the country, and 
countless additional jobs in the industries and small business 
that support the wastewater construction industry at a time 
when many small businesses and the construction sector are 
struggling to recover. Furthermore, this cut undermines 
longstanding Federal efforts to address our Nation's aging 
infrastructure system.
    Mr. Chairman, I ask unanimous consent to include in the 
record a chart showing the direct State-by-State losses under 
the Republican Majority's proposal to cut the Clean Water State 
Revolving Fund.
    Mr. Gibbs. So ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5482.007
    
    Mr. Bishop. Thank you. I would like to highlight just a few 
additional programs where the cuts voted on by the Majority 
will have significant adverse impacts on the economy, could 
result in additional job losses throughout the Nation, and 
place at risk the health of a greater number of families.
    First, the Republican Majority has proposed to cut EPA 
Brownfield site assessment and clean-up grants by 30 percent. 
This popular bipartisan program provides valuable seed money to 
cities and towns throughout the country to restore abandoned or 
under-utilized properties, to promote economic development, and 
to return commercial properties to local tax rolls. Estimates 
suggest that the Republican proposal will result in 300 fewer 
properties being assessed during the current fiscal year, 20 
fewer sites being cleaned up, and a potential loss of over 
1,500 additional jobs, and approximately $300 million in 
leveraged redevelopment funds.
    The Majority has also proposed to cut EPA's Superfund 
budget by $32 million. This program, which was created by this 
committee to clean up the Nation's most toxic waste dumps, is 
critical for protecting public health and the environment, and 
for exposure to hazardous substances. While the exact number is 
not yet know, EPA expects that the Republican proposal to 
reduce funding for this program will result in fewer clean-ups 
being undertaken, will increase the risk that our communities 
and families remain exposed to toxic chemicals and substances, 
and could lead to the layoff of countless clean-up workers.
    Finally, the Majority has voted to pull back on EPA's 
compliance and enforcement capabilities, making it far more 
difficult for the Agency to identify and pursue serious 
violations impacting public health and the environment in 
communities across the Nation. According to estimates, the 
Republicans' continuing resolution could result in the loss of 
as many as 100 compliance and enforcement personnel, 1,000 
fewer inspections across all media--that is to say air, water, 
waste, and toxins--and the loss of millions of dollars to the 
U.S. Treasury from foregone fines, penalties, and settlements 
from the most egregious violations.
    In my view, this proposal stands in stark contrast to the 
Agency's effort to increase compliance in critical areas within 
a limited budget, and suggests that a weakened compliance and 
enforcement presence is somehow better for the Nation. These 
are just a few examples of the potential negative impact of the 
Republican continuing resolution on our Nation's economy and on 
jobs.
    Mr. Chairman, as I said earlier, I recognize the 
challenging economic times facing this Nation. In my view, this 
administration has taken a pragmatic approach to respond to our 
economic situation at the same time as prioritizing the 
programs and policies that preserve its core mission of 
protecting public health and the environment while reducing air 
and water pollution.
    However, in contrast the administration's efforts stand 
with respect to the Draconian cuts proposed by the Republican 
Party in the continuing resolution. In my view, as well as a 
great many respected non-aligned economics, the cuts proposed 
by the new Majority will result in immediate and significant 
job losses, will significant weaken national efforts to emerge 
from the last recession stronger than before, and will shift 
the balance from protection of public health to protection of 
the polluters.
    In short, these cuts take the Nation in the wrong direction 
at the wrong time. I yield back the balance of my time.
    Mr. Gibbs. I thank you, Representative. Any other 
representatives like to be recognized?
    Mr. Rahall. Thank you, Mr. Chairman. I do thank you, 
Chairman Gibbs, and Ranking Member Bishop, for holding these 
hearings, and allowing me to participate today. And I join in 
welcoming our acting assistant administrator, Nancy Stoner, and 
assistant administrator Mathy Stanislaus.
    This hearing is timely, without a doubt. Given recent 
action by the House of Representatives during consideration of 
the fiscal year 2011 CR, the Agency faces the prospect of some 
challenging times ahead, to make an understatement. I often 
feel that the Majority's backdoor way to defund EPA is to 
require so many appearances of the administrator and her staff 
on Capitol Hill these days, that all the budget will go to gas 
money at today's increased gas prices.
    Those of us who live in southern West Virginia believe that 
we can have a balance between energy development and 
environmental preservation, and we have been doing such for 
decades. But balance cannot be achieved without fairness and 
equity. And the policies of the EPA at times have been anything 
but fair and equitable when it comes to coal mining in 
Appalachia.
    When the EPA issued its detailed guidance concerning Clean 
Water Act permitting in April of this year--in April of 2010, 
last year--it did so singling out coal mining, and coal mining 
only in Appalachia. Though the Agency labeled it interim 
guidance, the regime it spelled out was made effective 
immediately. And now the EPA is scheduled to finalize the 
guidance on April 1st, less than a month from today.
    A government cannot have one set of rules for one industry 
in one region of the country, and a separate set of rules for 
everyone else, and claim to be fair and just. What is more, the 
EPA is treating this so-called guidance as if it were binding 
policy. It is limiting State-issued discharge permits based on 
non-compliance with this guidance, bypassed an existing law, 
and longstanding regulation, and it is substituting a wholly 
new, barely studied, entirely confusing criteria for 
determining water quality, along with new timeframes for review 
and approval of petitions.
    Further, the regime that is set forth in that guidance memo 
has thrown the permitting process throughout the region into 
utter turmoil, with rules being determined on a case-by-case 
basis. The EPA erred in the way it pursued changes in its 
surface coal-mining permit processes. Now, some changes were 
warranted, grant you. Certainly, the status quo was not 
working.
    I do not know of anyone who opposes clean air and safe 
water, or who wants our children's health put at risk due to a 
degraded environment. And I worry that deep funding cuts will 
weaken our economy and stifle job creation that we so sorely 
need. But the message that I hope our witnesses take back with 
them today is that, in striving to achieve worthy valued goals, 
the EPA must work with the Congress and with the people who 
elected us. Or it will, as the framers intended, find its power 
checked.
    So, Mr. Chairman, I commend you again for having these 
hearings, and I do ask unanimous consent that I may submit 
written questions for the record, and ask that they be 
responded to.
    Mr. Gibbs. So ordered.
    At this time I want to call on the vice chair, 
Representative Herrera Beutler, for opening comments.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. It's a 
pleasure to have you here today. I know that this is going to 
be, hopefully, a very productive time of discussing priorities, 
and priorities as they relate to jobs and job growth. In my 
region in southwest Washington State we have double-digit 
unemployment in every county, save the county that has the 
State capital in it. And we have been languishing there for 
several years now.
    We have a tremendous resource with our rain. I know people 
complain about Washington State and the west side of the State 
and the rain and the gray. But, actually, if you grew up there, 
you kind of love it.
    We have the fourth largest river system that abuts my 
district, and we have tremendous resources when it comes to 
lakes and streams throughout the region. And because of this, 
one of our biggest challenges has been not just how those 
streams are taken care of, but really, the government's 
willingness to help us do a good job in taking care of those 
things.
    I hear from small employers all over my district, that they 
can't--they physically cannot hire the people to comply with 
some of these regulations.
    Let me tell you. Two years ago our department of ecology 
cited the Clean Water Act requirement that we not be allowed to 
wash our cars in our driveways, because of the run-off. I mean 
we're to the point where we're beside ourselves with some of 
these regulations.
    And so, it was disheartening--and I know there is a lot of 
talk about the CR that passed a week ago that's obviously not 
passing in the Senate, is not--you know, that whole bill is not 
likely to become law. So we are really dealing--we are not 
dealing with some of the Draconian job cuts that were 
discussed. But what we're really dealing with is an 
administration and a Congress that seem to be going in two 
different directions.
    Last year alone your Agency promulgated over 900 new rules 
that small businesses in my district are struggling with. It's 
not just the small businesses, it's the counties and the 
cities. They are coming under intense challenges and 
regulations to upgrade systems. And we're talking about small 
cities with very, very small rate-based--rate payers in the 
region, and they are having to come up with multimillion-dollar 
upgrades. All of this, in light of the President's budget, 
which reduces help with compliance, and increases the number of 
boots on the ground, when it comes to enforcement.
    Now, in my mind, if our common-shared goal is to keep our 
waterways clean for the next generation, we should be wanting 
and jumping at helping people comply. In my limited lifetime 
experience, I have learned that honey goes further than a 
stick. The willingness to work with people who have a shared 
goal versus just drop a hammer on them is the way we reach that 
goal. And it really seems like--and I'm expressing some 
frustration that it seems like your Agency has been unwilling 
to work with us on some of these issues.
    So, I am looking forward to working with you. You will 
likely receive a tremendous amount of correspondence from my 
office. I had my PUD in from my largest county yesterday, gave 
me this EPA rulemaking timeline, and I will make a request for 
unanimous consent to have it put into the record. These colored 
boxes--I had to deliver to them the news that they are losing 
ability, or help, with implementing these requirements from 
your Agency. At this time, in my mind, that is unacceptable.
    So, I look forward to finding some solutions with you, as 
we move forward. Thank you for being here today.
    Mr. Gibbs. Representative?
    Mr. Carnahan. Thank you, Chairman Gibbs and Ranking Member 
Bishop, for holding this hearing today on the administration's 
fiscal year 2012 budget and priorities for the EPA.
    I am pretty sure we all agree there are important steps we 
must take to address our deficit. It's critical that we balance 
this with making important investments in water infrastructure 
and public safety to ensure sustainable economic growth and job 
creation.
    In my opinion, the President's budget request for the EPA 
does just that. It balances the need to make investments in our 
water infrastructure with the need to reduce our deficit. We 
hear often from my colleagues on the other side of the aisle 
about the job-killing nature of regulations, but we don't often 
hear about the problems with killing our health and our 
environment. I think the key is that we have common sense 
environmental regulations. That should not be viewed as a 
burden, it should be viewed as a responsibility of all of us. 
And tough economic times and serious plans to bring down the 
debt do not equal a free pass for polluters.
    So, I think I would like to see a common sense balanced 
approach. We all my have different ideas. We obviously are 
dealing with a divided Congress this year. But there is areas 
where I think we should focus, look for some common ground.
    I was pleased to hear the President, in his State of the 
Union, talk about the need for additional investments in 
infrastructure. All of us on this committee, I think, can agree 
with that. And the very next day we had the head of the U.S. 
Chamber and the head of the U.S. AFL-CIO come out and make a 
joint statement, also talking about the need for that, the 
importance for business creation to grow this economy and to 
grow jobs.
    So, I would like to look at some of those common ground 
issues. Specifically in the President's budget it proposes 
$1.55 billion in Federal capitalization grants for the Clean 
Water State Revolving Fund. In my home of St. Louis, the 
metropolitan sewer district has used that Clean Water Revolving 
Fund to address a serious problem of combined sewer overflows. 
We still have a lot of work to do there.
    While this is a decrease of funding over the fiscal year of 
2010, it's far better than the 67 percent decrease included in 
the Republican CR. The quality of our streams, in fact, the 
mighty Mississippi, the health of our citizens depend on these 
programs and us really administering them in a smart way.
    So, I look forward to working with you, and working with my 
colleagues on the other side of the aisle to continue to make 
progress in a common sense way. Thank you.
    Mr. Gibbs. Thank you. Representative Landry, do you have an 
opening statement?
    Mr. Landry. I sure do, Mr. Chairman. I appreciate it. I 
thank you, and I ask unanimous consent to revise and supplement 
these comments.
    I want to thank Chairman Gibbs for calling this hearing, 
and our witnesses for giving their time to testify.
    I want to start off by telling the committee I am an avid 
hunter and fisherman. In fact, one of my favorite places on 
earth is hunting at my camp. I hold a bachelor's degree in 
environmental science and renewable resources. I own several 
businesses that did environmental work. So I feel like I have a 
personal understanding of the importance of EPA's 
congressionally designated mission to provide us with clean 
water, fresh air, and abundant wildlife.
    However, I am concerned that, in practice, EPA's mission 
bears little resemblance to the congressionally authorized 
mission, and instead, is more about impeding commerce than 
protecting the environment. While I could use many examples 
today, I will specifically address the issue of 404 permits. 
Before I do, let me provide two clarifications.
    First, I certainly understand that, under the Clean Water 
Act, the Army Corps of Engineers is the lead Federal Agency. 
However, when I meet with the Corps, they tell me you are to 
blame. I'm sure that today you will tell me that they are to 
blame. I'm here to tell you you're all both to blame. Everyone 
is involved in this 404 permit process.
    Secondly, I want the committee to know that I understand 
the importance of wetlands protection. In my district, wetlands 
provides invariable protection to human lives against hurricane 
storm surges. These wetlands are disappearing at an alarming 
rate. In just almost the half-an-hour that we've been in this 
committee, Louisiana has lost half a football field already, 
disappearing into the Gulf of Mexico. If this erosion 
continues, 2 million people in Louisiana will become subject to 
more frequent floods, and more susceptible to the effects of 
hurricanes.
    The Clean Water Act was designated to protect these vital 
wetlands. As used, though, section 404 has caused huge delays 
to projects with minor impacts to minor wetlands. Let me give 
you an example.
    Recently, a local levee district went to perform a 
maintenance dredging on a drainage canal. EPA came out, looked 
at the canal, and declared the canal now a wetland, because the 
prior owner had not provided proper maintenance. This drainage 
canal, the canal that was specifically built and specifically 
designed and specifically used as a drainage canal is now, in 
your eyes, a federally protected wetland. So, instead of facing 
a $200,000 maintenance dredging project, this levee district 
faces a $500,000 to $1.1 million dredging and mitigation 
project. That does not even include the costs and delays 
associated with securing the 404 permit.
    I want to remind you that the dollars for this project come 
from local taxes, not the Federal Government. Obviously, the 
levee district cannot afford this amount. As a result of the 
cost increases, the levee district has not only--has been not 
only prevented from dredging the canal, but also from 
installing a new pump station in Lockport, Louisiana. Because 
this pump station has been delayed, a major shipyard, a major 
employer in my district, is in danger of flooding.
    So, instead of protecting the important coastal protection 
wetlands, the EPA is using the act to increase the cost, 
decrease the effectiveness, and delay projects which protect my 
constituents, create jobs, and further economic activity.
    I know I am not the only having this problem. As cited in 
``Sitting on our Assets,'' a report from this committee, the 
average 404 permit takes 2 years and $271,000 to complete. 
Overall, private industry and local governments spend $1.7 
billion every year in preparing and securing 404 permits. I 
hope today's witnesses will address how EPA hopes to streamline 
the 404 permit process in order to protect our important 
wetlands without interfering with job creation, economic 
development, and community protection projects.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Gibbs. Thank you. Ms. Hirono?
    Ms. Hirono. Thank you, Chairman Gibbs and Ranking Member 
Bishop. Today we will hear from the EPA regarding your fiscal 
year 2012 budget request for water and wastewater management.
    No community can thrive or even survive without clean water 
and efficient wastewater management systems. Likewise, we 
cannot ensure the health and safety of our population without 
adequate enforcement of the rules and regulations necessary to 
enforce the laws that we have passed.
    We have heard a lot this morning about the need and desire 
to work with you. So I was pleased to read in your testimony, 
Administrator Stoner, that the EPA, for example, is 
implementing a sustainable water infrastructure policy that 
focuses on working with States and communities to enhance 
technical, managerial, and financial capacity.
    There is no doubt that every State will be affected by what 
we do here today and in the coming months. So let me focus a 
bit on Hawaii. Hawaii is especially sensitive to water issues, 
as run-off from the mountains in the center of our islands 
often pours down quickly through our communities and into the 
ocean. Without adequate wastewater management, we would be 
putting our already fragile marine environment in jeopardy.
    For example, a temperature change of one degree, or sudden 
flow of mud and water from the land, can kill the corral that 
helps to attract so many visitors to Hawaii, and also provides 
a habitat to our unique marine wildlife.
    Of course, in addition to insuring the safety and security 
of our natural environment and communities, water 
infrastructure projects serve as serious job creators, which is 
why I was very concerned over the Draconian cuts to the Clean 
Water State Revolving Fund in H.R. 1, which cuts Hawaii's 
fiscal year 2010 portion of these important funds from 
approximately $16 million to only $5 million, and would put 
approximately 300 people out of jobs. And I know that our 
ranking member is putting into the record a chart of the impact 
of these cuts on every other State.
    We should be putting programs like the SRF at the top of 
our priority list, and effectively funding the key 
responsibilities of agencies like yours. If we underfund the 
core responsibilities of the EPA, which includes effectively 
enforcing our environmental laws, we not only undermine job 
creation, but we are also playing chicken with public health 
and safety in the future.
    Of course, we have a lot of tough decisions ahead of us, 
and we are sure to disagree about how best to meet these goals. 
For example, I disagree with the President's decision to 
terminate the USDA's small watersheds programs which, though it 
is not an EPA program, is so vital to ensuring access to clean, 
safe water for the rural communities and farmers in Hawaii.
    However, these disagreements cannot end in deadlock. We 
need to work together to move forward. So I look forward to 
hearing your testimony. And I yield back the remainder of my 
time.
    Mr. Gibbs. Thank you. Representative from Oklahoma, 
Lankford?
    Mr. Lankford. Yes. Thank you. And thank you for being here. 
I know this is probably the favorite part of your week, when 
you get a chance to run up and get a chance to testify. And I 
thank you for doing that.
    Let me mention a couple of things. I have no question that 
Republicans and Democrats are committed to clean water. All of 
us like to drink water. All of us like to bathe in it. All of 
us like to be around it. So this is not an issue of suddenly 
Republicans want dirty water and Democrats want clean water. 
This is an issue of how we handle that balanced perspective of 
keeping things in a focused relationship between business and 
individuals in government regulatory environments.
    Let me also say to you region six of the EPA, which 
Oklahoma is in, has been extremely helpful. They have been very 
responsive. And I would pass on my great compliments to them, 
both from local businesses and municipalities, that when they 
have asked questions, region six has been very responsive. So 
thank you very much for the continued work there on that.
    There are obviously key issues in America, and EPA seems to 
be the signal point for a lot of those. Jobs are obviously 
affected. I was in a separate hearing where there was constant 
conversation about the increasing regulatory environment and 
the acceleration of regulations. One of my friends from the 
other side of the aisle said, ``The more regulations we create, 
the more jobs we create, because there is more compliance 
officers that are hired.'' The people that were on the panel at 
that time were not real pleased with the fact that the way 
we're making more jobs in America is by making more compliance 
officers in America. They really want to be able to produce 
products, produce goods and services.
    The more compliance officers that we hire to be able to 
fill out paperwork and be able to submit it back to EPA and 
other agencies, the slower our economy becomes, because we are 
dragging down into it. We are dealing with things like energy 
and not permitting in different areas. We are dealing with the 
way we're handling hydraulic fracking, and the constant threat 
over hydraulic fracking at this point.
    Transportation infrastructure is slowing, because they're 
trying to figure out how to deal with storm water runoff around 
the construction site, and there is this constant acceleration 
of what has to be done to maintain storm water runoff around a 
construction site.
    Cities and municipalities are dealing with unfunded 
mandates that are being placed on them dealing with wastewater 
and their water coming in for drinking water. It is this 
acceleration that is occurring that is causing them to have to 
invest dollars they currently don't have. It literally takes 
police officers and firefighters off the streets and puts them 
into investing into storm water systems and into compliance 
people that are filling out paperwork and sending it to 
Washington and police officers are not going on the street in 
local municipalities because they have limited dollars. And 
they have got to be able to make those hard choices. So, the 
more we accelerate the requirements on local municipalities, 
the fewer services, actually, municipalities are getting on 
this.
    The issue is we've got to find a balance. And my hope is, 
in the days to come in our conversations, that we don't come in 
a combative way, we come in a conversation to say, ``This is 
what we are hearing from our district, from individuals, from 
city leaders, from businesses, to say we are hearing these 
things. You may or may not be hearing these things; we are 
hearing them screamed at us, saying, `Please get the EPA off of 
us, we cannot continue to function this way, and can't continue 
hiring people that are not producing goods and services, but 
only producing paperwork for the EPA.' ''
    So, I appreciate you coming. I appreciate the conversation. 
Hopefully it can be a very warm, friendly conversation to 
actually come to some solutions. Thank you.
    Mr. Gibbs. Thank you. Representative Harris, do you have an 
opening statement?
    Dr. Harris. Thank you very much, Mr. Chairman, and Ranking 
Member Bishop. I would ask unanimous consent to extend and 
revise my comments.
    I look forward to a spirited hearing today, as it should be 
whenever we're talking about something as important as clean 
water. As a physician, of course, look, I understand the 
importance of clean water. I think everyone does. But, you 
know, we do have a discussion ongoing as to the budget 
implications. I mean that's what this hearing is about.
    And the facts are that, you know, we have had triple-digit 
growth in the EPA budget since fiscal year 2008, when we are 
approaching double-digit unemployment. Now, I venture to 
guess--and I will ask you later about whether or not you had 
double-digit employment growth in your Department while the 
Nation went the other direction.
    And clearly, the discussion about jobs and the CR is not as 
clear as some Members on the other side of the aisle would have 
it. In fact, Mr. Chairman, I ask unanimous consent to enter 
into the record a letter from 50 leading economists, just to 
say that H.R. 1 actually will improve the job environment in 
the United States, not make it worse.
    Now, nature was good to the Eastern Shore of Maryland; 
that's the part I represent. You know, it carved out the 
Chesapeake Bay, which is beautiful, but it also created some of 
the best agricultural land in the eastern shore of this 
country.
    And when I go back into my district, I talk to farmers and 
I talk to poultry growers--we're also one of the leading 
poultry regions--and I talk to people who live on the water. 
And I tell you. There is great concern over what the EPA is 
doing. And not only from those constituencies, because the 
natural constituencies, the agriculture, the farmers in 
Maryland and the poultry industry in Maryland--this is Maryland 
we're talking about--are pretty used to coming under the rather 
rigid thumb of the environmental controls in Maryland.
    But the surprise was from the small municipalities, some as 
small as 40 houses, and the large municipalities in my 
district, and the counties in my district, that look at the 
heavy hand of the TMDL regulations, as they are currently 
proposed, and say they can't afford it. In fact, my 
jurisdictions would have property tax increases of 50 percent 
in order to afford those regulations.
    Now, perhaps people in the Department have a different view 
of what the economy looks like, and what it looks like for the 
average property owner on the eastern shore of Maryland. But 
they can't afford a 50 percent increase in their taxes from an 
unfunded mandate coming from a faceless bureaucrat who, I don't 
think, understands the real world realities of what's going on 
in the First District of Maryland.
    So, I will tell you. We're going to talk about a lot of 
these things, because we have to. The economy, as I go out and 
talk to many of the business owners in my district, and I ask 
for an example of regulations, there are two they always give 
me. One is the 1099s, which we will deal with on the floor 
later today, and eliminate that regulatory boondoggle, and then 
the second is the EPA.
    I don't know what you have done to gain the ire of so many 
hardworking people in my district, but you have. And I think 
we're going to have to look very closely and very carefully at 
how the administration does its business, and why there is this 
uniform feeling in our district that the EPA is holding back 
certainly our economic growth with regards to agriculture and 
the poultry industry, and this worry among our municipalities 
and counties that there is this huge unfunded mandate coming 
down on them.
    And I will tell you, from the budget situation, they are 
not going to get help from the Federal Government. I know the 
Maryland budget situation. They're not going to get help from 
the Maryland State government. They're going to be left to 
raise their property taxes on hard-working Americans and our 
seniors, our retired folks who--that's the biggest tax bite 
they have in their budget. They're going to get 50 percent 
property tax increase because of what TMDLs are going to do. 
And that's just in one of our jurisdictions.
    So, I look forward to a very spirited discussion on a wide 
variety of issues. I thank you, Mr. Chairman, and yield back 
the balance of my time.
    Mr. Gibbs. And, so ordered, your statement will be entered 
into the record.
    Representative Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. And I got 
here a few minutes late because of other meetings, and I really 
hadn't intended to say anything, but then I heard Ms. Herrera 
Beutler's statement, and I thought about how I am hearing the 
exact same things from small businesses in my district. And I 
heard the statements of some of these other Members. And I can 
tell you. This is my 23rd year in the Congress. And in all that 
time, I have never heard as many complaints or concerns about 
the EPA as I have just within the last few weeks or months.
    In fact, just yesterday, I had consulting engineer in my 
office who worked for many years for the Knoxville Utilities 
Board, and now he is a consulting engineer for--I think he said 
Nashville and Chattanooga and Memphis. He said--he's in his 
mid-fifties. He said he had never seen so many unnecessary or 
excessive regulations coming down on these utility boards as he 
had just in the last few months, and he was talking about the 
billions in costs that we're talking about.
    Yesterday I had the administrator and some other officials 
from a very small town in my district just outside of 
Knoxville, and they were talking about the same thing, and how 
they couldn't afford it. I heard my colleague from Maryland 
talk about that. I am hearing the exact same thing.
    This morning I met with representatives of the coal ash 
industry, and they were talking about the regulations, 
potential regulations from the EPA, that could cost billions on 
the highway construction process in this Nation. And last week 
we saw on the front page of the USA Today that the gas prices--
the top of their front page story says that gas prices were 
going to go to $5 a gallon or higher.
    Yesterday I had the--I had a meeting with their transport 
association, and I had representatives of the eight largest 
airlines. And they told me that each one penny increase in jet 
fuel costs the aviation industry, as a whole, $200 million a 
year.
    I think too many people within the EPA don't realize that 
some little minor change in regulations can cost this Nation 
billions. And it doesn't hurt the big giants. In fact, in any 
highly regulated industry, the small guys go out first, and 
then the medium-sized businesses are run out, and in these 
highly regulated industries, they end up in the hands of a few 
big giants. So, when you over-regulate, it helps the big 
giants, but it sure hurts the small and medium-sized 
businesses. And what it does, it drives up costs for the poor 
and the lower income and the working people. That's who is hurt 
the worst.
    And so, I hope that--I saw where the administrator said, 
well, she is hearing the same doomsday things that were spoken 
40 years ago. Well, 40 years ago we hadn't sent millions of 
jobs to other countries. And 40 years ago we weren't going 
through the situation that we're going through today. And we 
have just seen some--we've been seeing a start of a recovery. 
But if we drive these gas prices back up, and--to even higher 
levels, and do some of these other things, we're going to back 
in. We're going to have a double-dip. And the EPA will deserve 
a lot of credit for that, if we do that. But it's going to hurt 
a lot of poor and lower income people in the process. Thank 
you, Mr. Chairman.
    Mr. Gibbs. Thank you, Representative. At this time I want 
to welcome Ms. Nancy Stoner. She is the acting assistant 
administrator for the office of water in the United States 
Environmental Protection Agency.
    Welcome.

  TESTIMONY OF NANCY STONER, ACTING ASSISTANT ADMINISTRATOR, 
OFFICE OF WATER, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 
AND MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
   WASTE AND EMERGENCY RESPONSE, UNITED STATES ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Stoner. Good morning, Chairman and members of the 
subcommittee. I am Nancy Stoner, the acting assistant 
administrator for the office of water at the U.S. EPA. Thank 
you for the opportunity to speak about the President's fiscal 
year 2012 budget request for EPA's national water program.
    Mr. Chairman, clean water is not a partisan issue, and--as 
several of the Members have recognized today--residents in 
urban areas, rural areas, young and old, from red States and 
blue States, all demand clean and safe water in their 
communities and when they turn on their taps. Protecting public 
health and the environment is the core mission of the EPA, and 
this includes our work on clean and safe water.
    Our programs not only fund water infrastructure in every 
part of the country, but also help communities ensure that 
their drinking water is safe from a litany of threats. Clean 
water is vital to the U.S. economy. A wide range of businesses 
depend on clean and adequate water supplies, including 
manufacturing, energy generation, tourism, farming, 
development, fishing and shellfishing, food processing and 
beverage production, and others. The Clean Water Act is 
precisely designed to provide--to protect those many uses of 
water by American businesses, which employ millions of 
Americans and impact virtually all citizens and communities.
    While much progress has been made, America's waters remain 
imperiled. More than 59,000 water bodies in the U.S. do not 
meet water quality standards, which are based on those uses. 
The primary sources of impairments are pathogens, nutrients, 
sediment, PCBs, and mercury.
    Consider these facts about the value of clean water to the 
U.S. economy. About 40 million anglers spend $45 billion 
annually to fish all kinds of waters. Manufacturing companies 
use 9 trillion gallons of fresh water every year. The beverage 
industry uses more than 12 billion gallons of water annually to 
produce products valued at $58 billion. Farms depend on clean 
water for irrigation. Thirty-one percent of all surface fresh 
water withdrawals in the U.S. are for irrigation. And, in an 
example nearby, the Chesapeake Bay is valued at $1 trillion for 
its fishing, tourism, property values, and other water-
dependent business.
    The EPA request for the national water program is for $3.98 
billion, which is a 25 percent reduction from fiscal year 2010 
enacted levels. The requested level still allows EPA to 
maintain its fundamental mission of protecting human health and 
the environment, but also reflects the tough choices that 
Americans are making every day, and which many of you spoke 
about this morning.
    The funding will allow the Agency to drive technology 
innovation for a stronger economy, spur job creation, and 
protect the environment cost-effectively. That substantial cut 
goes beyond eliminating redundancies. We have made difficult, 
even painful, decisions. We have done so, however, in a 
thoughtful, careful way that preserves EPA's ability to carry 
out its core responsibilities to protect the health and well-
being of American children and adults.
    You have been reviewing the fiscal year 2012 budget request 
for EPA for more than 2 weeks now, so I will not march through 
all of its details in this opening statement. However, the 
largest aspect of the water budget at EPA goes directly to 
States for water infrastructure. Specifically, the Clean Water 
State Revolving Fund and Drinking Water Revolving Fund provide 
affordable loans to local communities to finance public waste 
water systems and other water quality projects that protect 
public health and vital water resources.
    The fiscal year 2012 President's budget request includes 
$1.55 billion for the Clean Water SRF, and $990 million for the 
Drinking Water SRF, enabling States and tribes to begin over 
600 clean water projects, nationally. This represents a 
reduction of $947 million from the fiscal year 2010 enacted 
level.
    The fiscal year 2012 President's budget also provides $350 
million for the Great Lakes restoration initiative, $67.4 
million for the Chesapeake Bay program, and $6 million for the 
Mississippi River basin. These funds will target the most 
significant environmental problems in these critical 
ecosystems, including Asian carp prevention, reducing harmful 
nutrient pollution, and working with State partners and local 
stakeholders.
    In conclusion, I would like to thank you, Mr. Chairman, and 
the members of the subcommittee, for this opportunity to 
discuss the President's fiscal year 2012 budget request for 
EPA's national water program. EPA looks forward to continuing 
our work with this subcommittee to foster protection of 
America's waterways, and the public's health and well-being. 
And I would be happy to respond to any questions you may have.
    Mr. Gibbs. OK. Our next witness is Mr. Mathy Stanislaus. He 
is the assistant administrator to the office of solid waste and 
emergency response of the U.S. EPA.
    Welcome.
    Mr. Stanislaus. Good morning, Chairman Gibbs, Ranking 
Member Bishop, and members of the subcommittee. I am Mathy 
Stanislaus, Assistant Administrator for the U.S. Environmental 
Protection Agency's Office of Solid Waste and Emergency 
Response. Thank you for the opportunity to appear today to 
discuss EPA's proposed budget for Superfund, Brownfields, and 
other programs that fall under the Committee's jurisdiction.
    In addition to protecting human health and the environment, 
EPA is responsible for ensuring that our land and our 
communities are safe, habitable, and prosperous for all 
Americans. Protecting human health and the environment is a 
non-partisan issue that affects all of us. EPA has employees 
throughout the country working closely with State and local 
officials to clean up hazardous sites in our communities, many 
of which have a long history of pollution.
    This budget request allows EPA to carry out its core 
mission and fund the most critical efforts to protect the 
health of American families, while making tough choices that 
Americans across the country are making every day. To clean up 
our communities, the President is proposing investments that 
clean up contamination and promote economic development and job 
creation.
    The President's 2012 budget proposes $175 million for the 
Brownfields program to support State and tribal clean-up 
programs, and to support planning, clean-up, job training and 
redevelopment of Brownfield properties, especially in 
underserved and disadvantaged communities. EPA's Brownfields 
program uses this funding to successfully leverage economic 
investment in rural, small town, and urban areas. More than $17 
is leveraged for every dollar expended by Brownfields program 
funding. And more than 67,000 jobs have been leveraged through 
Brownfields program funding. And studies show that residential 
properties adjacent to cleaned-up and redeveloped Brownfields 
sites have increased in property values.
    In fiscal year 2012, Brownfield grantees are expected to 
assess more than 1,000 properties, clean up 60 properties, 
leverage at least 5,000 clean-up and redevelopment jobs, and 
leverage $900 million in clean-up and redevelopment funding. 
EPA encourages community revitalization by providing funds to 
assess and clean up Brownfields and to support greater 
community involvement.
    The President's budget also proposes $1.23 billion for 
Superfund clean-up efforts across the country, which represents 
a reduction from fiscal year 2010 enacted levels, and reflects 
the hard budget choices that are being made. We will continue 
to respond to emergencies, clean up the Nation's most 
contaminated hazardous waste sites, and maximize the 
participation of liable and viable responsible parties in 
performing and paying for clean-ups. We are committed to 
continuing the Superfund program's success in protecting human 
health and the environment and providing local communities 
opportunities for economic development by cleaning up our 
Nation's worst hazardous waste sites.
    The Superfund program to date has provided clean drinking 
water to more than 2.1 million people living near our National 
Priority List Superfund sites. It has reduced child blood 
levels at 150 sites where residential yards were contaminated 
with lead. It has controlled unacceptable exposure from site 
contamination at close to 1,400 sites, more than 84 percent of 
the sites listed on the National Priorities List, and 
facilitated the re-use and re-development of nearly 550 sites, 
helping to generate more than 34,000 jobs.
    For example, the South Side Sanitary Landfill Superfund 
site, located 5 miles southwest of Indianapolis, Indiana, is a 
former 300-acre landfill listed on the Superfund National 
Priorities List in 1989. This site was contaminated with heavy 
metals, asbestos, paint, waste, and sludges, which contaminated 
ground water and nearby drinking wells. A slurry wall and 
leachate collection system was constructed to control 
contaminated groundwater migration. The clean-up was designed 
to allow future beneficial uses of this site. Today, a methane 
gas collection system powers the largest commercial glass 
greenhouse in North America, along with the nearby aircraft 
turbine plant. This site has also provided room for commercial 
businesses in addition to a golf course. The site now supports 
more than 50 jobs.
    The Superfund program also continues to identify hazardous 
waste sites that pose the most significant risk to human health 
and the environment. In fiscal year 2010, the Agency listed 16 
new sites on the National Priorities List, and proposed an 
additional 8 new sites. EPA has continued its efforts to 
efficiently utilize every dollar and resource available to 
clean up contaminated sites and to protect human health and the 
environment.
    In fiscal year 2010, EPA obligated nearly $443 million, 
including funding from Superfund program appropriation, State 
cost share funding, and PRP, or potential responsible party, 
settlement funding, for Superfund construction and post-
construction projects. EPA used $106 million of its obligated 
funding to fund 18 new construction projects on 17 National 
Priorities List sites.
    Finally--I will just continue and finish up--EPA's oil 
response program is designed to protect inland waterways 
through oil spill prevention, preparedness and enforcement 
activities associated with more than 600,000 non-
transportation-related oil storage facilities that EPA 
regulates. A budget increase in fiscal year 2012 will allow EPA 
to broaden and expand prevention and preparedness activities, 
particularly inspection of high-risk facilities, including 
implementation of a third-party audit program.
    EPA and the Coast Guard evaluate thousands of spills 
annually to determine if assistance is required. On average, 
EPA manages the oil spill response or oversees response efforts 
of private parties at approximately 250 to 300 sites per year. 
The fiscal year 2012 budget requests an increase of $4.5 
million, totaling $19.5 million for OSWER's oil spill program 
to focus on high-risk sites.
    Mr. Chairman, that concludes my statement. Thank you for 
inviting me to testify.
    Mr. Gibbs. Thank you. I will start with the first question 
to Ms. Stoner.
    You know, budgets are about setting priorities. And as for 
the President's budget that has been submitted to us there is 
lots of cuts. I think it's bringing EPA down to levels closer 
to where they were a couple of years ago. We all know we've got 
to cut the budget.
    One concern I have I would like you to respond. There is 
one area of the budget that you are increasing, in the 
compliance assistance. But there is three sub-categories: 
incentives, monitoring/enforcement, and assistance. And my 
understanding is you are zeroing out the incentives and the 
assistance, and increasing the funding to the enforcement, the 
compliance part. And I would like you to respond to how you 
justify that. Because I think we need to work with businesses 
and entities out there.
    Ms. Stoner. Thank you, Mr. Chairman, for that question. 
Unfortunately, the first question is one I can't answer. It's 
about the enforcement and compliance budget, which is not 
within the office of water.
    So we actually do a lot of compliance-related activities in 
the office of water, including providing funding to local 
communities to help them meet Clean Water Act obligations, to 
build waste water treatment plants, to address sewer overflows. 
We also provide technical assistance to States and to local 
entities in developing water quality standards and in figuring 
out how to comply with--but I believe you are asking me about 
the budget for the office of enforcement and compliance----
    Mr. Gibbs. Let's go on, then.
    Ms. Stoner. And I don't know, I'm sorry.
    Mr. Gibbs. Would you please submit that for the record, if 
you can, from the other sections?
    Ms. Stoner. We would be delighted to do so.
    Mr. Gibbs. Another major concern I have is on the 
permitting process, you know, when an entity goes through all 
the hoops and requirements, the environmental impact studies 
and everything. And, as you know, we had the one operation in 
West Virginia that went far beyond the process and did the 
environmental EIS study and all that, and got their permit and 
got up running, spent millions of dollars putting rail in, and 
about 3 years later this administration revoked their permit.
    And, I think that's setting a huge precedent across all 
sectors of the economy, because what's going to happen when 
people--they're not going to be incentivized to take that risk 
and work to get the permit, so you're going to stifle economic 
activity and growth. And would you please respond on the 
rationale for revoking that permit in West Virginia?
    Ms. Stoner. Yes, sir. Thank you for that question. I 
believe you are asking about the Spruce Mine permit.
    Mr. Gibbs. Yes.
    Ms. Stoner. Which the Agency vetoed that permit under 404 
of the Clean Water Act. And we did take that action, which was 
a very unusual action for us. There have only been 13 404 
vetoes in the whole history of the Clean Water Act, back to 
1972. We felt that it was necessary to do so in this case, 
because of the filling of more than 6 miles of streams in--
direct filling in the project's proposal, as well as downstream 
impacts on wildlife. So we did take that step in that case.
    Mr. Gibbs. Let me be clear. Please tell me if I'm wrong. 
But I believe the 13 that you mentioned was all pre-issue of 
the program, or through the application process. This 
revocation of this permit was after the permit was issued, and 
3 years after the fact.
    Ms. Stoner. Yes, sir. You are correct, that it is even more 
infrequent that we would take an action to eliminate or veto 
the specification for a particular permit after it was issued. 
And 13 is the total number of 404 vetoes that we have done. 
Again, very much a last resort, in our view. We would very much 
prefer to be able to work out the issues.
    Mr. Gibbs. Well, I think we should let the record show that 
this was the first time the EPA revoked a permit after it was 
approved, and they were up and running and operating. I think 
that's clear. I think the permits that you're talking about 
were during the process before they were finally--final 
approval. I think we will show that for the record. Will you 
concur with that?
    Ms. Stoner. I think there may have been one other permit 
that was revoked in a landfill. But at most, it was the second.
    Mr. Gibbs. The guidance that is going to OMB on the--that 
would--regarding the jurisdiction on the Clean Water Act, when 
do you expect that to be formal from the OMB?
    Ms. Stoner. We don't know the answer to that question. It 
did go over there late December. And usually OMB makes 
decisions within 90 days. We will expect it to go out for 
public comment. It will not be immediately effective. We look 
forward to talking with you and your staff about that when it's 
out.
    Mr. Gibbs. And, why are you using guidance, instead of just 
coming out in the rulemaking process and have the official 
hearings and the testimony, versus doing the guidance?
    Ms. Stoner. We are moving forward with the guidance as a 
first step. We are considering additional steps, including 
rulemaking. Be happy to discuss that with you and your staff, 
as well.
    Mr. Gibbs. OK. I thank you, and I will turn it over to the 
ranking member, Congressman Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman, and I want 
to start with the first question that the chairman asked. And, 
Ms. Stoner, I would appreciate it if you would submit a 
response for the record, to make sure that we all have the same 
information.
    But my information, with respect to the--or my 
understanding, with respect to the compliance assistance budget 
is that it has been combined with the enforcement budget, and 
the net increase requested for the two combined is $27.5 
million. But if--so that there is not a cut to compliance. It 
appears as if it's a cut, given how the budgets are presented, 
but the category has been folded into another category. If you 
could please confirm that so that we all have the same 
information, I would appreciate it.
    Ms. Stoner. We would be happy to do that.
    Mr. Bishop. Thank you. For both of you--and thank you very 
much for your testimony--you both indicated that the budget 
requests reflect the fiscal realities that the Nation is 
currently grappling with, and that these budgets are--you 
didn't use the word, but essentially Spartan budgets, but that 
they still allow the EPA to pursue its core function of 
protecting human health and protecting the environment. And the 
budget that the President has requested, in total, for the EPA 
is about $1.4 billion below current--or, pardon me, fiscal year 
2010 enacted.
    The budget that would be the budget for fiscal year 2011 
for the EPA would be another $1.4 billion below that if H.R. 1 
were to ever take on the force of law. I am one that hopes that 
it does not. But that budget would spend $7.5 billion on the 
EPA, as opposed to the $10.3 billion that is in fiscal year 
2010 enacted. Does that budget, if it were to ever take on the 
force of law, does that allow the EPA to continue to perform 
its core functions, or would we be veering out of the category 
of difficult and painful cuts, and into the category of 
destructive cuts? I will ask that of either of you.
    Mr. Stanislaus. Sure. Well, again, I can talk more 
specifically about the 2012 budget. And, as you mentioned, 
Congressman Bishop, there were tough choices and we are able to 
maintain our core responsibility to protect public health and 
the environment. But it is tough, and we are going to be 
challenged on the 2012 budget. And we understand that the 
Congress and the administration are going to be working on the 
fiscal year 2011 budget.
    So, we've not done the specific analysis, in terms of the 
cut. But what I can tell you is in terms of the hard choices at 
the fiscal year 2012 budget, we were able to, with the cut, 
enable the core mission to move forward while--with those cut-
backs. So it is going to have some challenges, but we were able 
to maintain that core mission.
    Ms. Stoner. Let me just add on the Clean Water and the Safe 
Drinking Water SRFs, which is a large part of the budget of the 
office of water, that we do anticipate that there would be more 
than 700 projects that wouldn't be able to go forward, and 
21,000 jobs that wouldn't be created under the budget for H.R. 
1.
    That is--lots of people have been speaking this morning, 
Members have been speaking this morning about the need for 
local communities to get assistance in complying with the Clean 
Water Act. That's what those funds are for, complying with the 
Clean Water Act and the Safe Drinking Water Act, and those 
would be cut, and jobs would be lost, as a result.
    Mr. Bishop. Thank you. Let me move to that, because I 
listen to Mr. Duncan, my friend, talk about how he has heard 
more from business leaders over the last several months about 
the EPA, and hearing characterizations of the EPA that are not 
terribly complimentary or favorable.
    What I hear from my business leaders, more than anything 
else--and I represent a coastal resort area district--is the 
necessity for additional Federal involvement in the area of 
wastewater infrastructure. I represent a district that is 
approximately 80 percent septic systems, and, at most, 20 
percent sewers. And my business leaders all over my district 
view the absence of sewage treatment systems as an impediment 
to economic growth, given our environment and given the fact 
that we are surrounded by water.
    So, I am particularly concerned about both the President's 
request for a significant cut in the SRF budget, and even more 
concerned about H.R. 1, which cuts it even more drastically. 
Could you comment on that, please?
    Ms. Stoner. Yes, Congressman. Thank you for that question. 
Yes, those funds are very valuable. There is also the 319 
Program, which is the nonpoint source program, and helps 
address problems associated with septic systems and other 
nonpoint sources of pollution. All of those are very helpful to 
local communities in protecting beach water, tourism, fishing, 
and other very economically valuable activities.
    Mr. Bishop. Thank you. Thank you for indulging my time. I 
yield back.
    Mr. Gibbs. OK, thank you. Representative Herrera Beutler?
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And it was so 
great to sit in your seat for, like, 30 seconds.
    [Laughter.]
    Ms. Herrera Beutler. A question for Ms. Stoner. And forgive 
me, I'm going to read a little bit of it, because to try and 
get it all out--I just want to get the particulars out.
    For longer than I have walked this earth, the EPA has 
defined in its regulations that forestry operations are 
nonpoint sources, and therefore, not subject to Clean Water Act 
permits. Specifically, the NPDES permits. The forest products 
industry has a documented record of compliance. And that 
industry enjoys a warm welcome in my district, and is a 
significant source of jobs.
    A recent decision by the Federal ninth circuit court of 
appeals in Seattle suggests this regulation is invalid, and 
that forest roads, private forest roads, State and Federal 
forest roads are, in fact, point sources and will require Clean 
Water Act NPDES permits. EPA is not, as you know, a party in 
the case. And it's still winding its way through the process, 
through the judicial process.
    We do understand the Agency is currently working on 
guidance that would be applicable to all EPA regions, not just 
regions 9 and 10. This guidance would provide a framework for 
those wanting to obtain permit coverage, and to be able to do 
so. And I understand that the Federal appeals court in Seattle 
has questioned the authority of EPA to establish, by rule, 
nonpoint source status of forest roads.
    I have thousands and thousands of these forest roads on 
private lands in my region. So this is very, very significant 
to our--I mean immediate impact--to our economy. And most of 
those roads are really indistinguishable from thousands of 
miles of farming and country roads in our region.
    So, my question is this. Does the EPA plan to stand behind 
its own longstanding regulation, and avoid imposing this 
enormous regulatory burden on forest owners, farmers, and 
governments throughout this country?
    Ms. Stoner. Thank you for that question, Congresswoman. 
The--we intend to follow the law, and the court has determined 
that in the situation in which logging roads collect and 
discharge directly into the waters of the U.S., that those are 
point sources.
    So, to assist those entities that will need permitting, we 
are planning to make a permit that we have already on the books 
available, called the multisector general permit, available to 
those entities so that they can obtain coverage and be able to 
continue to discharge. But we will do so in compliance with the 
law, as determined by the Federal courts.
    Ms. Herrera Beutler. And to follow up no that, I understand 
that, you know, of course I'm not asking you to go against the 
law of the land. That is winding its way through the courts. It 
is not currently law. And your standing practice has been not 
to--has been, interpretation of the Clean Water Act, that you 
don't have jurisdiction over those private lands, and making 
them--or requiring permits from them.
    Should the courts--so take that piece out of this. Does the 
EPA want to continue to follow its longstanding practice, or 
are you telling me that this is a direction you would like to 
go, irrespective of the court?
    Ms. Stoner. We haven't made that policy decision, 
Congresswoman, because right now what we are doing is planning 
to implement the law, as articulated by the courts. If, of 
course, that decision is changed, if the supreme court were to 
accept--we would take another look at that question at that 
time.
    Ms. Herrera Beutler. And with that, it's likely that I will 
be looking at legislation to provide a protection for our 
forest owners, or small forest owners on our private lands, as 
we move through. So you may also be receiving, it would be my 
hope, a law to follow in this case. Thank you.
    Mr. Gibbs. Thank you. Mr. Miller, or Representative Miller.
    Mr. Miller of California. Mr. Chairman, thank you. You're 
referred to as the EPA. I think of ourselves as the citizens 
protection agency, because our job is to represent the citizens 
who elect us. And some unusual things are starting to happen 
with EPA that I am kind of surprised at.
    Within the last month, we were representing a constituent 
to the EPA, and we received an email sent to us with an 
attachment containing an internal memo restricting 
communication with Members of Congress. Basically, it said, 
``EPA guidelines, Member of Congress inquiring on behalf of the 
constituents are treated the same as media.'' That's a joke.
    I remember about 8 years ago I had a dairy that was being 
fined by EPA, and I went out and looked at a date of discharge. 
And when I went to the site, the EPA gal had a little Earth 
First tee shirt, it was kind of cute, but the dairy man didn't 
really appreciate it. And I looked at the road coming into the 
dairy, and it had 18-inch curbs, which meant that it was a 
flood control channel that dumped right into the dairy 
property, and the dairy man's property was flooded. And when an 
executive came out from EPA they said, ``It's not the dairy 
guy's fault.''
    But my problem is when an agency internally--that's part of 
the Federal Government--has a guideline that says you cannot 
communicate with a Member of Congress representing their 
constituents, something is severely wrong and arrogant with the 
agency. Now, hopefully, something can be done internally so we 
don't have to legislatively override a stupid regulation. But 
when people have problems with a Federal agency, you're the 
only Agency out there that restricts access to Members of 
Congress.
    Give me one reason why you would not have dialogue with a 
Member of Congress concerning a situation that one of their 
constituents is going through.
    Mr. Stanislaus. Well, Congressman, I am not familiar with 
the memo. But I can tell you personally----
    Mr. Miller of California. You need to go back and look at 
your internal communications. Because your guidelines says, 
``Members of Congress inquiring on behalf of their constituents 
are treated the same as members of the media.'' I received the 
guidelines in an email. And communication with us was 
immediately terminated, on behalf of the EPA.
    Mr. Stanislaus. OK. Well, I can't speak to that. All I can 
tell you, in terms of--I personally respond to congressional 
Members' inquiries with respect to their constituents' requests 
on a daily and regular basis, and I will continue to do so.
    Mr. Miller of California. So we need to go to the top 
levels when we have a problem, rather than just dealing with 
EPA?
    But to be honest with you, if one of our constituents has a 
problem with EPA, they're not even going to receive a response. 
They're going to make a phone call, they're going to be put 
through this legislative bureaucratic process, it's not--I'm 
not chastising you, but that's what they go through. At least 
when they come to us, we can usually go to the agency, 
regardless if it's FHA, VA, whatever it is, and--even the FBI, 
we get a reasonable response back, and they will have dialogue 
with us. But when EPA sends my office an email terminating all 
communications with my office, something is severely wrong with 
the Agency.
    Mr. Stanislaus. Well, I can tell you that, our 
infrastructure, we have a separate office to coordinate and 
interact with congressional Members. And, clearly, there are 
some rules when things are an enforcement posture which 
restricts our ability to communicate with anyone. But beyond 
that, you know, we are committed to--we have a separate staff 
to communicate with congressional Members.
    Mr. Miller of California. So if we have a question 
regarding EPA policies, and there is an enforcement going on 
with somebody else, you can't respond to us about your 
enforcement policies?
    Mr. Stanislaus. We clearly can, and I have talked about the 
policies.
    Mr. Miller of California. I would like you to find out 
internally, and notify the committee, that that procedure is 
available to Members of Congress, and tell me what guidelines 
that you have implemented that would restrict our access.
    Now, if we are trying to get involved in litigation, trying 
to influence you in some way, we are not--that's not the goal. 
But if we question a policy and a procedure that you're 
implementing, and we look at it and say, ``This is just 
unreasonable,'' you know, would you give us guidelines in which 
you apply these standards?
    I mean it just--I have never--we have dealt with EPA over 
the years. I have always had a favorable--even when they had 
imposed fines. On this one dairy I told you about, they had 
imposed a fine. They had given a 30-day period to either pay 
the fine or they would proceed from there. And when I contacted 
them and I said I would like to have somebody at a senior level 
come out and just look at the situation. When they came out, 
they looked and said the enforcement is unreasonable, it was 
not the dairy's problem. It was basically the flood control 
agency had not put a diversion channel upstream from the 
property. Thereby, the property was focused on to this man's 
land.
    But when we're questioning an internal policy and the way 
you enforce the policy, and we think that the guidelines for 
that policy are unreasonable, to receive an email terminating 
all communications just is an unreasonable approach. I mean we 
are elected to represent--we're the House of Representatives. 
And when we cannot call a government agency on behalf of our 
constituents, something is severely wrong with the structure of 
government. And either it needs to be corrected internally, or 
Congress will correct it, one way or the other.
    Because many of us are not happy with the EPA as it is, 
with what they're doing in many areas. It's not your problem, 
that's our problem. But when it comes to communication, when we 
are cut off, there is a serious problem, and that--I guess my 
time has elapsed. So if you would like to----
    Mr. Stanislaus. Sure, I will provide clarification on the 
record. But I can tell you, on a regular basis, I do, as well 
as the regional offices, interact with the congressional 
Members----
    Mr. Miller of California. And this is the first time it's 
happened, as I said. But I received the memo.
    Mr. Stanislaus. OK.
    Mr. Miller of California. Thank you. I yield back.
    Mr. Gibbs. Let's move on. Representative Landry, do you 
have a question?
    Mr. Landry. Sure. I was getting ready to have to go into my 
next committee. Yes. My question is, do you believe that there 
are certain projects that are important enough to this Nation 
to require waivers or exemption from the 404 permit process?
    Ms. Stoner. Thank you for that question, Congressman. There 
actually are some exemptions in the 404 process for certain 
kinds of activities. Often farming activities of various kinds 
are exempt from the 404 process. So I would say Congress has 
made that decision in a number of instances. And I think there 
are good reasons to encourage farming activities. We like to 
have farmers on the land, farming. We know that's a good land 
use, from a water quality standpoint.
    Mr. Landry. OK. Would you consider maybe some exemptions 
that would lower the cost of--for levee protection and flood 
control back in Louisiana, equal to the same level as those 
farming activities, as well?
    Ms. Stoner. Quite honestly, I am not that knowledgeable 
about levee protection and flood protection, which isn't within 
the jurisdiction of the office of water. The Corps of Engineers 
would have more information about that, about whether those 
exemptions should be granted.
    Mr. Landry. OK. On Monday, Administrator Jackson was in New 
Orleans to take part in the Gulf Coast eco-restoration task 
force meeting. And at this meeting, the task force asked the 
participants, ``What is the greatest Federal impediment to your 
recovery,'' and the response most often given--which, again, 
many of my constituents--was the cost and delays associated 
with compiling and submitting 404 permits.
    Do you all have anything in the plans or protocols to try 
streamlining this process?
    Ms. Stoner. We have a number of agreements, MOUs, with the 
Corps of Engineers which are designed to make sure that that 
process goes smoothly and as rapidly as possible. I know that 
it is a high priority for the Army Corps to get those decisions 
made promptly. And we try to work as quickly as we can with 
them to--in our joint roles in the permitting process.
    Mr. Landry. What was your fiscal year 2008 budget?
    Ms. Stoner. I'm sorry, we might have to get back to you on 
that.
    Mr. Landry. OK.
    Ms. Stoner. I just have the fiscal year 2010----
    Mr. Landry. Do you know the increase between fiscal year 
2008 to fiscal year 2009, and then--because I know that you all 
mentioned--I had it here in my notes--that your current budget 
is a decrease from the--by 25 percent from fiscal year 2010, 
and I am--but I'm trying to figure out how much did it increase 
between fiscal year 2008 and fiscal year 2010.
    Ms. Stoner. We would be happy to submit that information 
for the record, Congressman.
    Mr. Landry. OK, thank you. I yield back the balance of my 
time.
    Ms. Herrera Beutler. [presiding.] Mr. Lankford, do you have 
a question?
    Mr. Lankford. I do. Thank you. Shift subjects a little bit. 
Let's talk a little bit about energy production and 
transportation, obviously two major issues in our American 
economy on that.
    The EPA has obviously been very engaged in energy 
production, and how much oil and natural gas that we will have 
in America in the future days, based on current conversations 
that are happening right now. It is a unique responsibility 
from our Department of Energy now, that actually EPA is the one 
driving how much energy we will have in America, rather than 
the Department of Energy and the other sectors, based on some 
future decisions.
    My understanding is science advisory board has a draft plan 
that's coming out this next week. Is that something that the 
members of this committee could see, in advance of when that 
comes out? I understand it's coming out the 7th and 8th. I 
would assume it's already done and is ready to go to release 
out to everybody. We would like to be able to see that in 
advance, so we can get a chance to read and review it and see 
it before the rest of the group gets to it, on the hydraulic 
fracking issue, specifically.
    Ms. Stoner. I can check with the office of research and 
development on that. That--it is their plan, hydraulic 
fracturing research plan, that you are referring to.
    Mr. Lankford. Correct. Yes, it is the hydraulic fracking 
plan, and it deals with water, specifically. That--my 
understanding, my research, is that is coming out, like I said, 
Monday. So I would like to be able to see it in advance so I 
can have time over the weekend to be able to review that and 
prepared for that. Can that be provided?
    Ms. Stoner. I can check with ORD on that today.
    Mr. Lankford. Thank you very much. This is a major issue to 
us in America, on how we're going to deal with hydraulic 
fracking. The majority of natural gas in America that heats our 
homes and that has so much production in so many ways for 
chemical plants and such and fertilizer is done through 
hydraulic fracking now. If this plan continues to move forward 
in a way that is not consistent with science, the actions of 
the EPA could dramatically increase the cost of every product 
in America, based on a single decision. So we cannot get this 
wrong.
    We are also at a very tenuous point that energy producers 
are a little tenuous on being able to invest into future plans 
and to future fields because of the overhang of a threat of the 
EPA that they may do something at this point to hydraulic 
fracking. Is there any conversation at this point on what will 
happen with hydraulic fracking, and what EPA's thoughts are on 
how to be able to enforce, or what thoughts may be on that? I 
know the reports are not out. Tell me where the discussion is 
at this point.
    Ms. Stoner. Absolutely we are in discussions about it. The 
ORD study plan that you referenced is about gathering the 
science, gathering the data, so we understand what is happening 
out there, in terms of hydraulic fracturing. There is a lot of 
public interest and concern, frankly, about the impacts of 
hydraulic fracturing on surface water and drinking water 
resources.
    We had a series of listening sessions last year about them 
that were very well attended, gathering public input on it. So 
we are definitely in discussions now, within the Agency, about 
what--how well we are addressing the issues that are being 
brought to our attention under the Clean Water Act and the Safe 
Drinking Water Act, as well as other authorities that are 
outside the scope of the office of water.
    Mr. Lankford. Several years ago--very similar done with 
this, with coal methane, and on the fracking issue. Do you 
recall what the finding was on that, as far as what was done, 
and the final result of how the fracking was going to be 
handled, dealing with coal methane?
    Ms. Stoner. I'm sorry, I'm not sure what you're referring 
to right now.
    Mr. Lankford. Well, just the conclusion. Were there 
additional regulations that were placed on coal, based on the 
study that was done for fracking for coal methane and such?
    Ms. Stoner. I am----
    Mr. Lankford. That's all right. I'm just trying to track--
coal has already had this study, and it's much more shallow 
than what gas and oil are. And so we've done studies like this 
very similar. We have already been through this. Now we are 
redoing it again for a different industry, and trying to re-
evaluate it. And I am trying to figure out the path and the 
pattern.
    I understand that Congress did request this, so a previous 
Congress came to you and said, ``We want you to do this 
study.'' I get that. The concern is that it has put an entire 
industry and prices and everything else into quite a bother, 
because it's slow to respond, and we are unsure of what EPA is 
going to do.
    Ms. Stoner. Yes. And we will certainly be looking at the 
existing information we have about coal bed methane. There are 
certainly some similarities in the industries, and in that we 
have done a lot of information, including evaluating 
technologies there.
    Mr. Lankford. Sure.
    Ms. Stoner. And we will be looking for commonalities, as 
you suggest, Congressman.
    Mr. Lankford. One quick question on it. Is there a State 
that you can identify that says, ``This State is incompetent to 
oversee its own water area, so the EPA has to be able to step 
in on it? If we don't step in, the people in that State are 
going to get bad water?''
    Ms. Stoner. We have not withdrawn the authority of any 
State to run the water program, to my knowledge.
    Mr. Lankford. OK, terrific. That is one of those areas I 
know EPA has partnered with multiple States to be able to 
continue to have the States handle local enforcement on that.
    I would just recommend the more that we can hand back to 
the States, and the fewer things that we're trying to do from 
DC, and the more things that an individual State--being from 
Oklahoma, the department of environmental quality, the water 
resources board in Oklahoma are some fantastic people, and they 
work very hard for our land and water, to make sure it's clean. 
And the more moments that they have, of having to worry about 
what EPA is doing over their shoulder, it gives them the 
assumption that they are being treated as incompetent, they are 
not thinking about our land and water, when they are.
    And so, the more that we can get a chance to evaluate and 
say a State is already handling that, rather than the Federal 
having to take that over, the better.
    Ms. Stoner. Yes. Yes, sir. We coordinate closely with the 
States. We work with them as partners. And we try to do work-
sharing, to do the kind of thing you're talking about, ensuring 
that we're not engaged in the same endeavors that they are.
    Mr. Lankford. I appreciate that. Let's accelerate that. 
Thank you.
    Mr. Gibbs. Thank you. Representative Harris.
    Dr. Harris. Thank you very much. And thank you, Mr. 
Chairman. Thank you, Ms. Stoner, Mr. Stanislaus, for coming 
before the committee.
    First, one question I have is just kind of a quick 
question. Ms. Stoner, are you familiar with the Goodlatte 
amendment offered to H.R. 1 on the floor that removes funding--
and it's very simple, I will read it. ``None of the funds made 
available by this act shall be used to develop, promulgate, 
evaluate, implement, provide oversight to, or backstop TMDLs, 
or watershed implementation plans for the Chesapeake Bay 
watershed.'' Are you familiar with that amendment?
    Ms. Stoner. Yes, sir.
    Dr. Harris. OK. Now, the interpretation of some has been 
that this will remove all the on-the-ground activity for this 
fiscal year, with regards to cleaning up the Chesapeake Bay. Do 
you concur with that?
    Ms. Stoner. I am not sure of the interpretation of the 
lawyers, but I do know that the Agency is engaged in a lot of 
activities with the States in the Chesapeake Bay and the 
district.
    Dr. Harris. I understand that. My question is very 
specific. Fiscal year 2011, this says that this has to do with 
watershed implementation plans. Now, is it my understanding 
that those watershed implementation plans aren't--the final 
plans aren't even due until fiscal year 2012, the final local 
implementation plans? They are not due until fiscal year 2012, 
is that right?
    Ms. Stoner. Well, there are implementation plans that have 
been submitted already, and we are moving forward now with the 
State partners and the local entities to clean up the 
Chesapeake Bay.
    Dr. Harris. They are not due until fiscal year 2012, is 
that correct?
    Ms. Stoner. I don't----
    Dr. Harris. The deadline is December of this year, which is 
fiscal year 2012.
    Ms. Stoner. I don't know the answer to that question.
    Dr. Harris. Well, if you could provide in writing why you 
believe that any on-the-ground funds would be--so your 
interpretation is that on-the-ground activities to clean up the 
Chesapeake Bay are negatively impacted for this fiscal year by 
the Goodlatte amendment?
    Ms. Stoner. No, sir. What I said was that we are providing 
funding to the State and local governments to help implement 
clean-up for the Chesapeake Bay this year.
    Dr. Harris. Sure.
    Ms. Stoner. We did so last year, and we have increased the 
funding this year----
    Dr. Harris. Right, but they're not under approved watershed 
implementation plans, because those aren't due until next 
fiscal year. Is that right?
    Ms. Stoner. We--the TMDL is finalized, and we are working 
with the States to implement it now.
    Dr. Harris. But you have--the first step is you have to get 
the watershed implementation plans approved. And they're not 
due until December.
    Ms. Stoner. I would be happy to get back to you on that.
    Dr. Harris. Thank you. Could you? Second of all, you 
probably read this in the Wall Street Journal. You all are 
responsible for that dairy farm exemption issue with the oil 
spills. Is that your bailiwick? It is EPA, is that right?
    Mr. Stanislaus. Yes.
    Dr. Harris. So, my understanding is the EPA suggested a 
rule in January of 2009 to exempt dairy farms from creating oil 
spill disaster response plans, literally for spills of milk on 
a dairy farm. What in the world has taken 2 years for the EPA 
to finalize that rule?
    Mr. Stanislaus. Well, we are planning to finalize the rule 
as we speak. It's been submitted to OMB last week. And so, 
the----
    Dr. Harris. What took 2 years to implement a rule that milk 
spills on a dairy farm should not come under oil disaster 
response plans? Because, I've got to tell you, five kids at 
home, I hope I don't have to do an oil spill plan for the EPA. 
Although I suspect, the way the EPA is going, it's getting 
there. Well, let's move on. Thank you very much. You can get 
back to me in writing on that.
    If we institute--Ms. Stoner, if we institute the TMDLs 
under the watershed implementation plans, and no Federal or 
State funds flow--now, I have 12 counties that are subject to 
this TMDL. One county alone, Anne Arundel County, has estimated 
it will cost $1.87 billion--with a ``B''--for that county, that 
that county is responsible for, to implement that plan. That's 
one of my 12 counties, Anne Arundel County, $1.87 billion, if 
there are no Federal funds available. And, let's face it, 
you've got $67 billion in this fiscal year budget. Anne Arundel 
County alone would have to spend $200 million in this--that's 
just one of my counties, and there are seven States and the 
District of Columbia under the jurisdiction.
    If there is no Federal money, and there is no State money, 
because our State, like other States, are running short of 
money, would it--would the county really be responsible for 
that money, in order to come under--to come into compliance 
with the TMDLs? I mean if there is no money, do they have to 
pay, or do you--will they be taken into court to pay?
    And this is a 50 percent increase in the property taxes. 
That's what it would take in that county to pay for that TMDL. 
Is that true, that if there is no Federal money, no State 
money--doesn't make a difference--that local jurisdiction has 
to do what that watershed implementation plan says?
    Ms. Stoner. Compliance with the Clean Water Act is 
generally not dependent upon the existence of Federal funds for 
that compliance. But, as we've been saying, we provide a lot of 
funding to help communities.
    Dr. Harris. If there is no funding. If there is no Federal 
funding, that community has to come up with the dough? That's 
about right. That's what I thought.
    Last question. There are estimates that 10 percent of 
cropland would have to be removed from production--10 percent--
in order to come up under the TMDL compliance, at least in the 
State of Maryland. And I have looked at the figures on nitrogen 
loading, and that's probably true.
    Will the EPA promise that they will not order farmers to 
give up crop production--we're an exporter. Fortunately, the 
United States is a net exporter of grains. We have a lot of 
grain on the Eastern Shore. Is there a promise from the EPA 
that they will not force those crop lands out of production, in 
order to comply?
    Ms. Stoner. I am not aware of the EPA ever forcing any crop 
lands out of production. We are working closely with the USDA 
in making sure that there is funding available to help 
communities in the Chesapeake Bay comply.
    Dr. Harris. Is that a yes, or--I guess the EPA will not. 
That's not their intention. My farmers will feel much better. 
Thank you very much, Mr. Chairman.
    Mr. Gibbs. Thank you. Representative Reed, do you have a 
question?
    Mr. Reed. Thank you, Mr. Chairman. A lot of my questions 
have been addressed with the TMDL and the hydrofracking that 
come from western New York, and that is a priority--those are 
two priority issues that we are dealing with in our office. So 
any information you can send or reply to my colleagues, I would 
greatly appreciate being CC'd on that information.
    I have a question to Mrs. Stoner--or Ms. Stoner, I am 
sorry. I noticed in the President's budget it zeroed out the 
compliance assistance program and it increases the enforcement 
budget. Is that an indication from the administration that we 
are going to focus more on enforcement rather than to encourage 
compliance?
    Ms. Stoner. Congressman, I was asked earlier about the 
difference between the two budget categories. And that is 
actually in the budget for the Office of Enforcement and 
Compliance Assurance. So I don't know the answer to that.
    But I do know that compliance assistance is a very 
important part of the work that EPA does. We don't do 
enforcement activity in the Office of Water, but we do a lot of 
different kinds of compliance assistance activities--technical 
assistance activities, funding, as we have been discussing. We 
provide a lot of assistance to individuals in how to comply 
with the Clean Water Act.
    Mr. Bishop. Mr. Reed, may I ask you to yield for a second?
    Mr. Reed. Sure, Mr. Bishop.
    Mr. Bishop. Thank you. We talked about this before you came 
in.
    Mr. Reed. OK.
    Mr. Bishop. And we have asked Ms. Stoner to provide 
documentation for the record to make sure that we all have the 
same information. But my understanding of the budget request is 
that the compliance function and the enforcement function are 
joined as one, and the total increase for the two combined is 
now $27 million in the President's request.
    It looks as if compliance is zeroed out and enforcement is 
increased dramatically, but it is a combination of the two 
functions together for efficiencies, and with the total 
increase of expenditure for the two categories combined of $27 
million. But I have asked that that information be submitted 
for the record so that we all have the same information. I want 
to make sure my interpretation is correct.
    I'll yield back.
    Mr. Reed. Thank you for the clarification.
    Mr. Gibbs. Mr. Reed, would you yield?
    Mr. Reed. Yes, I will yield.
    Mr. Gibbs. I am looking at a document here--I guess I will 
address Ms. Stoner. It looks like the $27.5 million increase is 
all for enforcement. It is in monitoring programs, increase the 
number of inspections, and new enforcement paradigm. So the 
increase is all enforcement. Is that correct?
    Ms. Stoner. I don't know, Mr. Chairman. But we will get 
back to the committee on that.
    Mr. Gibbs. Submit it to the record. Thank you.
    Mr. Reed. OK. Thank you for that clarification because 
where the money is and the increases in the money, I mean, 
obviously is an indication of what the policy of the EPA and 
the Office of Water will be on it.
    I just want to hear from you, as the director. Do you feel 
that compliance is still a primary role or a secondary role? 
What role in the Agency do you see it?
    Ms. Stoner. Obviously, compliance is very important. And we 
are working very hard to try to make sure that we are getting 
information out, including through the States that run most of 
the Clean Water Act programs; that we are working with local 
governments.
    We understand that times are tough and that people are 
trying to figure out the most cost-effective ways to meet their 
obligations under the Clean Water Act and to make sure their 
waterways are safe for the public. We view that as one of our 
principal missions, to work with communities to do that.
    Mr. Reed. OK. And in regards to its relationship to 
enforcement, do you see it as the same level of importance, or 
do you see it as a priority over enforcement? What comes first, 
compliance or enforcement, from your perspective?
    Ms. Stoner. Well, temporally, often, compliance assistance 
comes first. For new requirements, often we are in a position 
of compliance assistance early on, outreach compliance 
assistance, and so forth. The enforcement tool is used for 
different kinds of situations than compliance assistance in a 
lot of cases. So we view them as two complimentary tools used 
for different circumstances.
    Mr. Reed. And then--I have got about a minute left here--
the Executive order that was issued on January 18, 2011, talked 
about using the least burdensome tools for achieving regulatory 
ends. I don't know if this was asked previously. Was it asked 
previously? No?
    OK. How do you intend to accomplish that? And I will start 
with you, Ms. Stoner, and then we will go to----
    Ms. Stoner. Yes. We are working Agency-wide to gather 
information from the public about what we should do. We are 
planning listening sessions in every office and across the 
Agency. And we are in the process of reviewing our regulations 
to identify regulations that meet the criteria of the memo that 
you referred to.
    Mr. Reed. The least burdensome standard?
    Ms. Stoner. There are actually lots of different things in 
there about different ways. But it is all about streamlining, 
regulation, making it more cost-effective, and so forth. And 
those are the kinds of opportunities we are looking for.
    Mr. Stanislaus. We are doing the same.
    Mr. Reed. You are doing the same?
    Mr. Stanislaus. Yes.
    Mr. Reed. All right. I guess I am out of time, so I will 
yield back to the chairman. Thank you.
    Mr. Gibbs. Thank you.
    Representative Cravaack, you have a question?
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for being 
here today.
    I live in Minnesota, the land of 10,000 lakes, and I hear a 
lot from our constituents. And I have a question to ask you. 
Who do you work for? I know what Agency you work for, but who 
is your overall--who do you work for----
    Ms. Stoner. Well, my salary is paid----
    Mr. Cravaack. No, no, no. Who does the EPA work for?
    Ms. Stoner. I was going to say the public. The American 
taxpayer pays my salary, sir.
    Mr. Cravaack. OK. And I agree with you. I work for the 
American public, too, and this is what the American public is 
telling me. The American public is telling me that the EPA is 
overreaching. It is regulating--it is legislating by 
regulating.
    I have a question for you. We have a very large lake in the 
middle of Minnesota; it is called Mille Lacs. Who owns that? 
Who owns that lake? Who is the ultimate authority of that fresh 
body of water?
    Ms. Stoner. I am not--I don't know the answer to that 
question. I don't know who owns that lake.
    Mr. Cravaack. Sir, do you?
    Ms. Stoner. But I am confident the public uses the lake, 
but I don't know who owns it.
    Mr. Cravaack. Sir, who do you believe owns that lake?
    Mr. Stanislaus. Again, I don't know that--I am assuming it 
is probably a home rule issue and----
    Mr. Cravaack. The 10th Amendment says that the State of 
Minnesota owns that lake. Federal overreach by the EPA on a 
body of water that has absolutely no regulation for commerce, 
as we just saw most recently with the America's Commitment to 
Clean Water Act, endorsed by the EPA.
    Now, there are two very significant legislations--or court 
cases, the Swank Agreement and also the Ropanus Agreement. 
Again, Federal overreach by the EPA. From the migratory bird 
theory, where a migratory bird would be able to light upon a 
body of water, it was considered a Federal piece of property.
    This is an extreme overreach by the EPA. And I am 
challenging the EPA to step back and reassess who their boss 
is. Their boss is the American to people, just as who my boss 
is as well.
    I would like to see a statement from you stating how the 
EPA is partnering with the people of the United States of 
America--instead of legislating by over-regulating, how they 
are partnering with them to assist in that we all want clean 
water. And I can tell you what: The independent Minnesotans in 
the Eighth District of Minnesota are more interested in clean 
water than anybody here in this room.
    So my question to you is, how are you partnering with the 
people of America to ensure that you are not overreaching, to 
ensure you are not putting in guidelines that are just 
absolutely ridiculous, like our colleague here in regarding 
milk? Why does it take 7 years and $27 million to push projects 
through the EPA--we have open pit mining in our area, and 
mining in general, and it's the EPA watershed. Could you tell 
me that?
    If you can't do it in 1 minute and 57 seconds, I 
understand. But I would like to have your comments on record on 
saying how the EPA is working with the American people instead 
of against the American people.
    Ms. Stoner. I appreciate that. And we actually take very 
seriously our obligation and responsibility to hear from the 
public on these issues. We do, as I mentioned, have a lot of 
different forums in which we obtain information from the 
public. We also work through our regional offices, where we 
have additional ability to reach out to people.
    We view that as a very significant part of our work, is to 
ensure that what we are doing is benefitting the public, 
benefitting the public's use of the waterways, and hearing 
their concerns not only about clean water but how we achieve 
it.
    Mr. Cravaack. Well, I ask you, then, ma'am, in issuing 
guidance instead of the rule, for the Administrative Procedure 
Act requirements regarding this, it actually almost violates 
what President Obama has come out for open and transparency. 
And yet here we go. You are legislating again through 
regulating. You don't have open comment for the American 
people.
    Ms. Stoner. On the particular guidance I think you are 
referring to, which is currently pending at the OMB, that 
guidance will go out for public comment. It will not be 
immediately effective, and we will be looking for input from 
the American public. We would be delighted to talk with you and 
your staff about it as well.
    Mr. Cravaack. Thank you very much, ma'am. I appreciate 
that. And I will yield back my 22 seconds.
    Mr. Gibbs. Thank you.
    Representative Bucshon, do you have a question?
    Dr. Bucshon. Just for your information, your budget for 
2008 was around $7.6 billion. And in 2010 it was $10.3 billion, 
which is an increase of almost $3 billion in a 2-year period; 
in addition to the fact that in that same timeframe, the EPA 
acquired $7.2 billion in stimulus dollars.
    So that is kind of where you are funding-wise. And so your 
current request of $8.973 billion is actually a significant 
increase from 2 years ago. And I think, anyway, that is where 
the numbers lie.
    Being from southwestern Indiana and the State of Indiana, 
our electrical energy depends on the coal industry. And I know 
Chairman Gibbs has touched, before I came to the meeting, on 
the permitting process for mining operations and the one that 
was recently retracted.
    And the question I have is, as you probably know, the 
company that was responsible for that mine is losing $250 
million because of that move. And I would like to know that if 
the EPA is going to retroactively pull permits and cause 
problems for American business, what are we planning on doing 
to reimburse businesses when this is, again, another indication 
of retroactive, I think, policymaking through regulation, based 
on the fact that people have, and the President has said, a 
negative view on the coal industry, including a statement made 
by the President, and I am paraphrasing, that you can build 
another coal-powered plant, but we will bankrupt you.
    So I would like to know how the EPA is planning to put 
regulations in place--how are we going to reimburse private 
industry out there if the agenda that we have here in 
Washington, DC, is to create jobs and not to stop them? Because 
the State of Indiana, if you decide suddenly in my district to 
retroactively pull back permits, we want our money back.
    Ms. Stoner. Thank you for that question, Congressman. Both 
of my parents are Hoosiers, so it is always nice to see someone 
from the great State of Indiana.
    Dr. Bucshon. Probably not me, but someone.
    [Laughter.]
    Ms. Stoner. My mother actually has a farm in southwestern 
Indiana.
    But I appreciate your question about the coal mining. Let 
me just say that from the standpoint of the Office of Water, we 
have no opposition to coal mining or any particular kind of 
coal mining. Our role is solely to protect waterways.
    And that is what we were looking at in that permit veto 
that you referenced, the Spruce Mine veto, is merely our 
obligations under the Clean Water Act to protect those 
waterways. We felt like that we needed to take that action to 
protect those waterways, and that's the action that we took.
    Dr. Bucshon. Can I say that how come in the original 
permitting process that the EPA didn't identify the waterway 
issue up front before the company investing $250 million in the 
business?
    Ms. Stoner. EPA and the Fish and Wildlife Service were 
involved in commenting on that permit in the initial commenting 
process as well, and expressed concerns at that time as well.
    Dr. Bucshon. Then how come the permit was issued? That is 
my question. You know, you have to understand that in my 
district, with all the coal mines and other things, with 
farming--the Clean Water Act comes into play there also, as you 
know--that I have not heard from one constituent, not one, that 
what EPA is currently doing with the Clean Water Act is helping 
create jobs, getting people back to work, and spurring the 
economy.
    In fact, people have grave concerns in my district about 
what it is going to do for jobs going forward. And if EPA has 
initially commented, then grants a permit, and then a company 
loses millions of dollars and you can just pull that at any 
time, I have got serious concerns about that.
    And I want to know how, if the EPA is going to do that, out 
of the $7.2 billion in stimulus money you had, you would think 
that you would have enough money, maybe, to reimburse the 
industry that lost that money.
    The other thing is, as a general question, what did the EPA 
do with $7.2 billion in stimulus money?
    Ms. Stoner. We used those funds to assist local communities 
in addressing clean water problems, drinking water problems, 
and in creating jobs.
    Dr. Bucshon. Excuse me. I don't mean to interrupt. But can 
you submit to the committee an itemization of the uses, 
specific uses, of $7.2 billion in stimulus money? I would like 
to see an itemized statement on exactly what that was used for, 
whether that was used to expand the size and scope of the EPA 
or whether that was actually used for what you said, for job 
creating. Because I would like to see--I would really like to 
see that in money, what the money was used for.
    I mean, you have to recognize that that amount of money was 
almost as much as the entire budget for 2008.
    Ms. Stoner. We would be happy to submit information on the 
uses of the ARRA. It was not used for the Agency's budget, but 
rather, to give funding to other entities to meet----
    Dr. Bucshon. I understand. I just want to see it myself.
    Ms. Stoner. We would be happy to do that.
    Dr. Bucshon. Thank you.
    Mr. Gibbs. Thank you.
    Back my series of questions for Ms. Stoner. Dealing with 
the sewage sludge incineration and, of course, this comes under 
our purview a little bit because of the sewage sludge, but last 
week the EPA issued new regulations outlining a definition of 
nonhazardous solid waste. The new definition would result in 
significant restrictions on the ability of publicly owned 
treatment works to generate electricity from those biosolids.
    Biosolids generated by the public works have the potential 
to generate as much as 10 percent of our electricity 
consumption for our country, and is a renewable source of 
electricity. Did the EPA examine this issue as part of its 
rulemaking process? And why would the EPA allow the burning of 
tires to be considered as an allowable fuel stock and not the 
burning of biosolids?
    Mr. Stanislaus. Well, I can talk about my office's aspect 
of the rule. The Clean Air Act rule is under the Office of Air 
and Radiation.
    In our rule, we did take a look at the use of biosolids as 
far as fuel use, and we identified the circumstance under which 
it can be used. And there are a few facilities in this country 
that currently use that, but we didn't lay out a criteria for 
the use of manure, for its use as a fuel.
    Mr. Gibbs. My next question--would you care to answer, Ms. 
Stoner, on that?
    Ms. Stoner. No, sir. I don't have anything to add to that.
    Mr. Gibbs. OK. Thank you.
    Also on the clean water intake structures, Ms. Stoner, 
there was individual permits--States have standards for 
individual permits on specific cost-based analysis studies that 
were upheld by the United States Supreme Court. And it is my 
understanding the Agency will propose to issue new rules that 
will severely limit the site-specific analysis. This will 
likely increase the cost to customers and diminish the 
reliability of service.
    Why does the EPA believe the current program to be 
inadequate?
    Ms. Stoner. Mr. Chairman, we will be issuing a proposed 
rule in March on the cooling waters, and we will be tailoring 
that proposal to take into account site-specific information, 
as you suggest.
    Mr. Gibbs. What kind of improvements should we expect in 
that rulemaking?
    Ms. Stoner. It hasn't yet been cleared to be released. But 
I am anticipating that we will allow consideration of different 
factors in different places of the country.
    Mr. Gibbs. It is also my understanding that there was some 
litigation on this issue. Is that correct?
    Ms. Stoner. Yes, sir.
    Mr. Gibbs. Was there a settlement with the litigants?
    Ms. Stoner. Yes, sir. It is being promulgated under a 
schedule pursuant to a settlement with the litigants. Yes, sir.
    Mr. Gibbs. As part of the agreement, did the EPA help pay 
for the costs to the litigants?
    Ms. Stoner. I don't know the answer in this specific case. 
But they are entitled to costs under the law if they prevail.
    Mr. Gibbs. That is interesting. But there wasn't--was there 
a judicial order requiring this?
    Ms. Stoner. I think that the current schedule is due to a 
settlement. But there certainly have been cases, including all 
the way up to the Supreme Court, about this issue. And so the 
Agency has been working to promulgate rules for many years, and 
has had, I think, all of them challenged and subject to 
litigation.
    Mr. Gibbs. What about this specific matter, though?
    Ms. Stoner. I think it is on remand right now.
    Mr. Gibbs. Pardon me? I couldn't hear you.
    Ms. Stoner. I believe it is on remand. We are doing this 
rulemaking pursuant to a remand, I believe.
    Mr. Gibbs. I guess, to follow up a little bit more, was 
there anything driven for the EPA to have to pay for those 
litigants' cost? How was that determined for the EPA to pay for 
those costs?
    Ms. Stoner. There is a provision of the Clean Water Act 
that entitles litigants to obtain attorney's fees and costs in 
matters in which they sue the Agency and prevail.
    Mr. Gibbs. I guess my concern is you settled it, but there 
wasn't a judicial order requiring it. And I think, under the 
law, there has to be a judicial order. I don't think the EPA 
has the authority to move forward on their own on that. Is that 
correct?
    Ms. Stoner. Settlements often have attorney's fees and 
costs in it. If you would like me to get specific information 
about this particular matter and how the attorney's fees issues 
were handled, I could do that. I don't know that answer.
    Mr. Gibbs. Yes. I would like to have a written response on 
that. Thank you.
    Is there any other questions? Yes, go ahead, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Two things. One, I see 
that Mr. Bucshon has just left. And I appreciated his request 
to Ms. Stoner for a breakout of the $7.4 billion that went to 
the Environmental Protection Agency as a result of the Recovery 
Act.
    I would point out that the vast majority of that money went 
to the States for the State Revolving Funds. I would also point 
out that that information, a specific delineation of where 
every dollar went, what projects were undertaken, and how many 
jobs were created as a result of those projects was a component 
of the T&I Committee website until such time as the majority 
changed hands, and then that information came down.
    It is several hundred pages worth of information. It is 
available. And I think it is important for all of us to look at 
it again so that we all have the same information available to 
us as we evaluate.
    I want to go to an area--you know, as I said before, I 
represent a coastal district. The principal industries of our 
district are travel and tourism, everything associated with the 
second home industry, farming, and fishing--in other words, a 
district that is dependent on clean air and clean water for its 
economic vitality.
    And I perhaps have the luxury of representing a district 
where everyone in the district recognizes that the environment 
is the economy and the economy is the environment. And 
Republicans and Democrats, liberals and conservatives, all 
agree that an imperative we have is to see to it that our 
actions are consistent with protecting our environment.
    And so I know it is now I guess I would say fashionable, if 
not required, to not use the term ``regulation'' inside the 
Beltway unless it is preceded by the phrase ``job-killing.'' 
But in my district, regulations, frankly, are welcomed by 
Republicans, Democrats, liberals, conservatives, because they 
recognize that regulations are moving us forward in terms of 
our ability to have an economy that sustains our location.
    So my question to either of you is: Is my district unique? 
Is there any other district in the United States that 
recognizes the importance of environmental regulation, and 
recognizes that, in fact, to be pro-environment is to be 
decidedly pro-business?
    Mr. Stanislaus. Well, I will give it a shot. We believe we 
laid out rules and regulations that do, in fact, integrate 
environmental protection and economic development. And I have 
noted a number of them in my opening statements.
    For example, Brownfields resources do in fact lead to 
cleanup, protection of public health, and redevelopment and job 
creation. Our experience in the Superfund program is similar in 
terms of the protection of the public. We believe that it can 
and must link environmental protection and economic 
development. We believe we are moving forward with that 
balanced approach.
    Mr. Bishop. Thank you.
    Ms. Stoner. Let me just give one example from Cleveland, 
where Cleveland is addressing a problem of 5 billion gallons of 
untreated sewage that has been discharged into Lake Erie every 
year.
    And EPA recently reached an agreement with the city to 
invest in a combined sewer overflow control, including a green 
infrastructure, and the sewer district in Cleveland estimates 
that the total investment will lead to more than 30,000 jobs in 
the Cleveland area and return $2.63 for every dollar invested 
there. So I think that is an example of what you are looking 
for.
    Mr. Bishop. Thank you. And I want to be clear. I am not 
suggesting that every regulation is one that we ought to 
embrace or that every regulation is well-thought-out. I think, 
as Chairman Rahall said--or, pardon me, Ranking Member Rahall--
said in his opening statement, that the challenge before us is 
to find the appropriate balance. And I believe we have found 
that balance in my district, and I hope that we can find it in 
districts across the country.
    I yield back.
    Mr. Gibbs. I just want to comment and maybe lead into a 
question. In the President's proposed budget on this, the areas 
he is cutting are areas that help incentivize and assist 
entities and public entities to make environmental 
improvements, and the areas where you are increasing your 
spending is in the compliance and the enforcement. So I think 
that is a clear delineation, you know, difference.
    And it has always been my thought--I have been self-
employed since 1978 in a farming operation. In the years that 
we were making money, we could think about things to improve 
waterways and buffer strips and all that on the farm. But the 
years when the hog prices went south, we were totally focused 
on staying in business and paying the bills.
    And what I am hearing from my business people, and even 
public entities, too, is that the overlap of regulations and 
the burdensome compliance costs are hindering them. So we are 
not getting it done for the goal that we all want, to improve 
the environment.
    And so I guess, simply put, what I would like to see happen 
is where we would have either a public entity or a private 
entity, when they are doing their day-to-day work, and they 
have to comply with regulatory--whatever they are doing, to 
say, hey, this makes sense, we ought to be doing this, versus, 
why the heck are we doing this?
    And I think that is what I am hearing from a lot of 
businesses. There is no cost/benefit analysis, and they are 
just getting slapped higher and higher on costs, and they will 
actually go backwards. Because most people want to do the right 
thing.
    And do you concur that most people do want to do the right 
thing?
    Ms. Stoner. Absolutely. People respond to incentives. And 
if you have the right incentives, most people want to do the 
right thing. And everybody loves clean water. That is true.
    Mr. Gibbs. But would you also concur that the budget that 
has been sent to us from the President and your administration, 
it is increasing enforcement actions and it is cutting the 
incentive action, and, you know, that just goes counter to what 
we are discussing.
    Ms. Stoner. I completely agree that you need a variety of 
tools to reach people. Outreach and education can reach a lot 
of people, and that is the preferred tool to reach people, if 
possible. Enforcement is a different tool for different people, 
and for some people it is necessary.
    Mr. Gibbs. I am going to move on to ask if there are any 
more questions.
    Representative Cravaack?
    Mr. Cravaack. Thank you again, Mr. Chairman. In Minnesota 
it is timber, taconite, and tourism. Now, I can understand, 
with some of the statements that you spoke of, but I can also 
guarantee you that people in Minnesota are most interested in 
clean water, because they live there. That is truly the 
important thing to bring back here.
    And once again, the Federal overreach of telling us how to 
conduct our business within the State on non-navigable waters 
is something I am very concerned about. Could you give me what 
your definition is of ``navigable''?
    Now, I would like to know what, in the Clean Water Act--by 
the way, do we have a copy of the Clean Water Act jurisdiction 
guidance?
    Ms. Stoner. It is currently pending at OMB. It will be out 
for public review, including congressional review, once it's--
--
    Mr. Cravaack. I would like to have a copy of that, if you 
don't mind.
    Ms. Stoner. I can make that request of the OMB.
    Mr. Cravaack. OK, I would--I demand a copy of it. So if you 
would, please.
    The reason why I ask that question is this. Because of 
guidance in our forest industry, there has been pressure upon 
agencies within the government to comply with certain--even 
though they are guidances, comply with certain restrictions and 
regulations that are putting small loggers out of business, 
because they simply don't have the money to do it.
    So, be very careful when you say ``guidance.'' Because I 
would like to know, is this guidance, therefore, going to 
become mandatory?
    Ms. Stoner. A guidance is an interpretation of the statutes 
and the regulations. It is never mandatory. It is actually 
always subject to--it's just advice, so we can--and it----
    Mr. Cravaack. So the EPA will not pressure anyone into 
following this guidance. Do I have your word on that?
    Ms. Stoner. It's our----
    Mr. Cravaack. Is that on the record?
    Ms. Stoner. It's our interpretation of the statutes and the 
regulations. The statutes and the regulations are what is 
binding. So it provides information and advice about how we 
interpret the statutes and the regulations. The statutes and 
the regulations control.
    Mr. Cravaack. Well, I can tell you how all that guidance 
has affected timber industry in the State of Minnesota, not 
positively.
    Second thing is I would like to know what the--since I have 
not had access to the Clean Water Act jurisdiction guidance, I 
would like to know what the definition is of ``navigable.''
    Ms. Stoner. ``Waters of the U.S.'' is the term that's in 
the Clean Water Act to define navigable waters. There are 
regulations that specify how that has been defined. Those 
regulations have been in place for several decades.
    Mr. Cravaack. OK. So are we just talking about navigable 
waters that conduct commerce? Or are we talking about all 
waters of the United States?
    Ms. Stoner. The definition includes navigable, in fact, 
waters and other waters that have a relationship to 
traditionally navigable waters.
    Mr. Cravaack. So are you talking about sloughs? Are you 
talking about wetlands? What are you talking about here?
    Ms. Stoner. A lot of those elements are reflected in the 
regulations, sir.
    Mr. Cravaack. So, again, we go back to the overreach of the 
Federal Government, interfering with States and their waters 
that are considered non-navigable.
    I would contest to you that a wetland is not a navigable 
water. And I would also contest that you are--once again, the 
EPA is overreaching. We are going back to Swank. We are going 
back to the Ropanus Agreement, that--already struck down twice 
by the Supreme Court. You are overreaching. The EPA is 
overreaching and interfering with states' rights, states' 
waters. And I am very concerned about this guidance that you 
are putting out. If this is the direction that the EPA is going 
in, you are going to have a hard fight from people from 
Minnesota. So that is my statement to you.
    And I would like to see a copy of the Clean Water Act 
jurisdiction guidance. I think this is an overreach, and I 
will--I look forward to that information, and I yield back.
    Mr. Gibbs. OK. Thank you. I think--do you have--go ahead, 
Representative Harris.
    Dr. Harris. Thank you very much. Ms. Stoner, I just want to 
follow up with, I think, the questioning that we ended with 
last time.
    In the supposition that we pass the--that these TMDLs get 
promulgated and the watershed improvement plans get approved 
and all, and the local jurisdiction doesn't comply, they can't 
comply, they just don't have the money, what happens? What's 
the backstop to that? They just can't do it, it's just too 
expensive.
    Ms. Stoner. We are working very hard with State and local 
entities to ensure that they are able to meet the----
    Dr. Harris. Ms. Stoner----
    Ms. Stoner. But the----
    Dr. Harris. Ms. Stoner, the supposition they can't, the 
local jurisdiction can't afford that mandate. Anne Arundel 
County can't afford the $1.87 billion mandate. There are no 
Federal funds, or a very small amount of Federal funds, very 
small amount of State funds.
    Very specific question. What's the EPA's plan from that 
point? Do they go in and try to enforce a court order to force 
a local jurisdiction to raise the taxes to provide--to 
implement the plans? What's the EPA's plans in the not-unlikely 
circumstance that the local jurisdiction simply can't afford to 
comply?
    Ms. Stoner. Congressman, the watershed implementation plans 
actually came from the States. They figured out what they could 
do in order to meet the obligations of the TMDL.
    Dr. Harris. Ms. Stoner----
    Ms. Stoner. And that's what we would be looking for them to 
do.
    Dr. Harris. I--so the EPA will take no action. Is that your 
answer? The EPA will take no action, because you said the 
States are in charge. Is it your testimony the EPA will take no 
action against a local jurisdiction or a State, if the local 
jurisdiction can't afford to comply?
    Ms. Stoner. We will look at the facts and circumstances at 
that time to determine what's appropriate.
    Dr. Harris. Ms. Stoner, the facts are simple. The local 
jurisdiction doesn't have the money to comply, and ask me--
another set of suppositions. It's a very simple statement. I 
have met with my local jurisdictions. They tell me, ``We can't 
afford to comply.'' There is not enough Federal money, there is 
not enough State money.
    It's a very simple question. What's the EPA's plans? Are 
they going to take the local jurisdictions to court in order to 
force an increase in property taxes? Because we can't create 
money. Only in Washington we create money. My local towns and 
counties can't do it. They don't have the same ability we have 
here in Washington. What's the EPA's plans? Will the EPA--is it 
your testimony today that they will not take action against the 
local jurisdiction?
    Ms. Stoner. It's my testimony that we will look at the 
facts and circumstances at that time.
    Dr. Harris. So you cannot tell me what will happen if a 
local--see, Ms. Stoner, this is why these local jurisdictions 
are so afraid of the EPA. This is why they get emotional about 
it. Because they're faced with bureaucrats from the EPA who 
won't even tell them what they're going to do in the very real-
world circumstance that they can't afford to do what the EPA is 
forcing them to do.
    And, Ms. Stoner, your testimony reinforces that impression. 
Because this is a very simple question. I want to go back to my 
local jurisdiction and tell them why they shouldn't be afraid 
of the EPA, and your answer is, ``Well, we won't promise that 
we won't take them to court and force them to raise property 
taxes,'' or, ``We won't promise that we're going to go in there 
and force them to do something.''
    Is that your testimony, that you can't say whether you're 
going to--what you're going to do?
    Ms. Stoner. We can't decide in advance what we are going to 
do for a particular situation. But we will be involved in 
discussing it with those local jurisdictions if--in the event 
that they have difficulty meeting those obligations. There are 
a number of mechanisms of flexibility within the Clean Water 
Act. There are opportunities to discuss those. And we will work 
with communities to ensure that they are able to meet their 
obligations, and to clean up the Chesapeake.
    Dr. Harris. Ms. Stoner, are you going to send them money 
to--when you say, ``We're going to help them make sure they can 
meet those obligations,'' Ms. Stoner, it takes money. It's a 
huge unfunded mandate. The local jurisdictions don't have the 
money. You are not going to have the money. We're broke.
    Ms. Stoner, the Federal Government is broke. Where is the 
money going to come from to pay for those things?
    Ms. Stoner. The President has sought, in an increase in 
funding for the Chesapeake Bay in his fiscal year 2012 budget 
to help communities like the ones you're talking about.
    Dr. Harris. $17 million, Ms. Stoner. That's the President's 
increase. Anne Arundel County alone has a fiscal year 2012 
share--that's one of my 12 counties, I am only one part of the 
State of Maryland, that's only one part of the six States plus 
DC--their share alone is $200 million. I love that kind of 
generosity out of the Federal Government, but I'm afraid my 
local jurisdiction is going, ``Oh, my God, this is coming our 
way.''
    So, Ms. Stoner, if you think $17 million is all it's going 
to take to help the fiscal year 2012 State and local 
governments to fulfill their watershed improvement plans or 
implementation plans--WIPs, whatever they are--I'm afraid you 
don't get it.
    Ms. Stoner. We are also working----
    Dr. Harris. Thank you.
    Ms. Stoner [continuing]. With other Federal partners to 
help them, as well.
    Mr. Gibbs. Well, you know, I think I'm going to follow up 
just a little bit on Representative Harris. You know, 
obviously, since the Clean Water Act has been in effect in the 
1970s, we have made great strides in this country on point 
source pollution, even nonpoint source pollution.
    And you know, I think he is making a good point here. I 
have seen it. You come in, EPA comes in to a local public 
entity, and they want to do the right thing, but the EPA 
doesn't seem to want to work with that public entity, and what 
they will do, they will actually file a lawsuit against them, 
and actually add cost and put fines on them, and you just get 
into a--you know, a litigation that doesn't solve anything.
    So I guess my question is, you know, what--has the EPA 
given any thought to, when you're looking at the regulations 
and where that--a municipality might be at, and what they're 
trying to do, and what maybe they can do in the short run 
without charging the rate payers so much money that nobody can 
afford it, and they can't afford it, and set up a plan to how 
they can get there in a reasonable time period, and work with 
them, but instead, it seems like the EPA just wants to go in 
and start fining them, or litigation.
    So, is there any flexibility, any show of flexibility to 
work with the public entity to develop a plan that's reasonable 
that they can agree on?
    Mr. Stanislaus. Well, what I will promise to do is get 
information from the Office of Enforcement and Compliance 
Assurance.
    There is a longstanding practice where ability to pay is 
considered, where the circumstances are looked at, in terms of 
a compliance schedule. And we have done that for years. So, in 
terms of how that is considered, I am not the expert in that. 
But we do, in fact, look at those kind of issues. And we are 
currently in conversation with local government--I know in 
respect to my shop--with ability to pay in a certain 
circumstance.
    Mr. Gibbs. Do you want to respond, Ms.----
    Ms. Stoner. We have the same thing, in terms of ability-to-
pay polices that we look at, in terms of what communities can 
afford to do.
    The other point about the Chesapeake Bay is that the 
watershed implementation plans that were submitted by the 
States are for implementation through 2025. So there is a 
period of time to spread out those investments that need to be 
made to clean up the bay.
    Mr. Gibbs. Yes.
    Mr. Bishop. Mr. Chairman, would you yield?
    Mr. Gibbs. Yes, go ahead.
    Mr. Bishop. Thank you. I don't pretend to be as familiar 
with the issue as Mr. Harris is, but it seems to me--my 
understanding is that a significant component of the TMDL 
compliance issue will be met by improving and/or expanding 
waste water treatment capability. And so, if I understand the 
issue correctly, it seems to me that the issue that's being 
described is an open and shut argument for not cutting the SRF.
    And, as I said before, I am opposed to the President's cuts 
to the SRF, and I am opposed to the cuts that were included in 
H.R. 1. I think that there are few things we can do to improve 
water quality more important than seeing to it that our 
communities dispose of their waste in a fashion that is 
environmentally responsible and, as I said before, in a fashion 
that enhances economic growth.
    And so, again, I will defer to your knowledge, sir, of the 
specific situation. But it seems to me that we are at cross 
purposes. We are saying that we need more money to handle an 
issue with respect to TMDL and, at the same time, we are 
cutting the source of the funding that would help localities 
handle that issue. I yield back.
    Mr. Gibbs. Mr. Reed, do you have a quick question? We're 
going to wrap this up here, soon.
    Mr. Reed. Yes, thank you. I just have a quick question. Ms. 
Stoner, you're familiar with the recent article in the New York 
Times? I think it was on February 26, 2011, about hydro-
fracturing, and that article that was prepared. Are you 
familiar with that article?
    Ms. Stoner. Yes.
    Mr. Reed. In that article, it cites that thousands of 
documents were provided to the New York Times from the EPA. Was 
that something you're aware of?
    Ms. Stoner. My understanding is there were documents 
provided under the Freedom of Information Act, that's correct.
    Mr. Reed. OK. So all those documents that were provided 
were in response to a Freedom of Information request.
    Ms. Stoner. I actually am not sure that that's the case. I 
know that there was a Freedom of Information Act request, and 
documents were provided pursuant to that. I'm not sure whether 
other documents were also provided.
    Mr. Reed. OK. So you're not aware of any other documents 
that were released from the EPA outside of the Freedom of 
Information request protocols in regards to this article or any 
articles related to it.
    Ms. Stoner. I'm just not sure.
    Mr. Reed. OK. Mr. Stanislaus, are you aware of that report 
or this article?
    Mr. Stanislaus. I am.
    Mr. Reed. You are? And are you aware of any reports or 
documents that were released from the EPA to the New York 
Times, outside of any Freedom of Information Request?
    Mr. Stanislaus. I am not.
    Mr. Reed. OK, OK. Can you check on that, Ms. Stoner? If you 
are not aware of it, can you--I would like to make sure that 
any requests that are going--or any information that is going 
out of the EPA is following the procedures of the Freedom of 
Information request, and that there is not internal documents 
that are being leaked to--it's a concern of mine, and you 
promise me you will follow up that----
    Ms. Stoner. We certainly will check on that. I will tell 
you that it is a concern of mine, that--making sure that 
documents are not leaked from the EPA and the office of water. 
We need to have internal deliberative processes, and not have 
our documents published in the press. So I absolutely agree 
with the concern that you are expressing.
    Mr. Reed. OK. I appreciate that. And then, on the article 
itself, do you have any concerns about any of the comments that 
were expressed in the article about any of the concerns that 
were highlighted there?
    Ms. Stoner. As I mentioned earlier, we have heard a lot 
from the public about concerns with drinking water, with 
discharges into surface waters associated with hydro-fracking. 
The article was focused on radiation--or nuclear----
    Mr. Reed. Yes, radiation.
    Ms. Stoner. Yes, right. And that's one area. There is one 
area. There is others that we have heard from the public about. 
We are evaluating all of those. We are gathering science 
through the office of research and development, and evaluating 
those concerns to make sure we are protecting public health and 
the environment from any potential impacts from hydro-fracking.
    Mr. Reed. OK. So you are following up on those concerns. 
How about the waste impact, from your point of view?
    Mr. Stanislaus. Well, it's something that we are following. 
See, we've gotten similar requests, in terms of how the way 
this is handled.
    I mean currently, as the article notes, it's been handled 
through State programs that have requested for EPA to take a 
look. And we're kind of looking at that.
    Mr. Reed. And in regards to looking at it, what are you 
looking at, in regards to that?
    Mr. Stanislaus. Well, we have gotten requests as to whether 
there is any jurisdictional role. Right now, per congressional 
mandate, there is not a jurisdictional role in that right now.
    Mr. Reed. OK. Are you exploring trying to expand that 
jurisdictional role?
    Mr. Stanislaus. We are not. We are responding to a petition 
to look at what role we have, and whether we need to continue. 
I should note that we cannot act without congressional action.
    Mr. Reed. Sure, absolutely. So there is no priority, from 
your perspective, to expand that in your department?
    Mr. Stanislaus. No. We are evaluating that. And the 
particular provision in the Resource Conservation and Recovery 
Act requires congressional action for that to change.
    Mr. Reed. OK, good. So you recognize that----
    Mr. Stanislaus. Yes.
    Mr. Reed [continuing]. And you will abide by that.
    Mr. Stanislaus. Yes, yes.
    Mr. Reed. OK. Thank you. Nothing further.
    Mr. Gibbs. Mr. Harris, do you have a question?
    Dr. Harris. Thank you. Just a very brief question. And I 
appreciate the comments of my colleague, the ranking member. 
But, pardon the pun, I suspect that the amount of Federal 
funding is a proverbial drop in the bucket.
    Ms. Stoner, is the--did the Agency--and you will probably 
have to get back to me on this--estimate the total cost of 
compliance in the entire watershed, Chesapeake watershed 
region, of compliance with the TMDL regulations.
    Again, and I would like--appreciate it broken down by 
public and private sources, because again, you know, we have 
two counties that did pilot plans--Anne Arundel County, $1.87 
billion, that's just for one county, and that's only for the 
public, that's only what the county is responsible for, not--
and some counties have municipalities, of course, and of course 
the private cost to landowners for compliance.
    So, if you could just get back to me. Do you think--well, 
has the Agency done that? Has the Agency come up with a total 
cost?
    Ms. Stoner. There may be such a cost.
    Dr. Harris. If you could do that, I would appreciate that. 
Because then we can put in perspective what that, you know, $17 
million increase that the President put in the budget, you 
know, where that compares with the total cost of what we're 
talking about to not only our local governments, but also to 
our private industries.
    So, thank you very much. And thank you, again, for coming 
to testify.
    Mr. Gibbs. Thank you. That's going to conclude the first 
hearing of the Water Resources and Environment Subcommittee. We 
will be meeting next week, and we will be looking at the 
budgets of the Army Corps of Engineers. We are concluded.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
